1a
APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BERNADEAN RITTMANN, individually
and on behalf of all others similarly
situated; FREDDIE CARROLL, individually and on behalf of all others
similarly situated; JULIA WEHMEYER,
individually and on behalf of all others similarly situated; RAEF LAWSON,
individually and on behalf of all
others similarly situated; in his
capacity as Private Attorney General Representative; IAIN MACK,
in his capacity as Private Attorney
General Representative,
Plaintiffs-Appellees,

No. 19-35381
D.C.
No. 2:16-cv01554-JCC
OPINION

v.
AMAZON.COM, INC.; AMAZON LOGISTICS, INC.,

Defendants-Appellants.
Appeal from the United States District Court
for the Western District of Washington
John C. Coughenour, District Judge, Presiding
Argued and Submitted February 3, 2020
Seattle, Washington
Filed August 19, 2020

2a
Before: MILAN D. SMITH, JR., N. RANDY SMITH,
and DANIEL A. BRESS, Circuit Judges.
Opinion by Judge Milan D. Smith, Jr.;
Dissent by Judge Bress
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

SUMMARY*
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Arbitration
The panel affirmed the district court’s order denying the motion of Amazon.com, Inc., and Amazon Logistics, Inc., to compel arbitration of federal and state
wage and hour claims brought by delivery workers.
One of the named plaintiffs agreed to Amazon’s
Terms of Service when he signed up to work as a delivery provider for Amazon’s app-based delivery program
Amazon Flex (AmFlex). The Terms of Service included
an arbitration provision.
Agreeing with the First Circuit, the panel held
that AmFlex delivery workers were exempt from the
Federal Arbitration Act’s enforcement provisions because they were transportation workers engaged in interstate commerce under 9 U.S.C. § 1 when they made
“last mile” deliveries of goods in the stream of interstate commerce. Considering the plain meaning of the
relevant statutory text, case law interpreting the

* This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

3a
exemption’s scope and application, and the construction of similar statutory language, the panel held that
to be “engaged in interstate commerce,” the AmFlex
workers did not themselves need to cross state lines.
The panel held that the arbitration provision,
which included a choice-of-FAA clause, could not be enforced under either federal law or Washington state
law.
Dissenting, Judge Bress wrote that the narrow
FAA exemption for certain transportation workers did
not apply. In his view, for a delivery worker to be “engaged in” interstate commerce, the worker must belong
to a “class of workers” that crosses state lines in the
course of making deliveries.
COUNSEL
David B. Salmons (argued) and Michael E. Kenneally,
Morgan Lewis & Bockius LLP, Washington, D.C.; Richard G. Rosenblatt, Morgan Lewis & Bockius LLP,
Princeton, New Jersey; for Defendants-Appellants.
Harold Lichten (argued), Shannon Liss-Riordan, and
Adelaide Pagano, Lichten & Liss-Riordan P.C., Boston,
Massachusetts, for Plaintiffs-Appellees.
Toby J. Marshall, Blythe H. Chandler, and Elizabeth A.
Adams, Terrell Marshall Law Group PLLC, Seattle,
Washington; Jennifer D. Bennett, Public Justice, Oakland, California; for Amicus Curiae Public Justice.

4a
Archis A. Parasharami and Daniel E. Jones, Mayer
Brown LLP, Washington, D.C., for Amici Curiae Chamber of Commerce of the United States and National Association of Manufacturers.
OPINION
M. SMITH, Circuit Judge:
Defendants Amazon.com, Inc. and Amazon Logistics, Inc. (together, Amazon) appeal the district court’s
order denying their motion to compel arbitration of
Plaintiff Raef Lawson’s federal and state wage and
hour claims. Lawson is one of four named Plaintiffs in
this suit. Unlike the other named Plaintiffs, Lawson
agreed to all of Amazon’s Terms of Service (TOS) when
he signed up to work as a delivery provider for Amazon’s app-based delivery program, Amazon Flex (AmFlex), including the arbitration provision at issue here.
The primary issue that we address is whether AmFlex delivery workers are exempt from the Federal Arbitration Act’s (FAA), 9 U.S.C. § 1, et seq., enforcement
provisions because they are transportation workers
engaged in interstate commerce. In denying Amazon’s
motion to compel, the district court concluded that AmFlex delivery providers fall within the scope of the
FAA’s transportation worker exemption pursuant to
§ 1 because they deliver goods shipped from across the
United States. The court further determined that the
TOS bars application of Washington state law to the
arbitration provision. As a result, the court concluded
that there is no valid arbitration agreement between

5a
Amazon and Lawson, and denied the motion to compel.
We affirm.
FACTUAL AND PROCEDURAL BACKGROUND
I.

The AmFlex Program

Plaintiffs Bernadean Rittman, Freddie Carroll,
Julia Wehmeyer, and Raef Lawson contracted with
Amazon Logistics, Inc. to provide delivery services for
AmFlex. Amazon Logistics, Inc. is a subsidiary of Amazon.com, Inc., an online retailer that sells its own
products and provides fulfillment services for thirdparty sellers who also sell their products on Amazon.com.
Historically, Amazon has shipped products by using large third-party delivery providers such as FedEx
and UPS. Recently, it has supplemented those delivery
services by contracting with local delivery providers
through its AmFlex program, which is available in certain metropolitan areas in the United States. In the
AmFlex program, Amazon contracts with individuals
to make “last mile” deliveries of products from Amazon
warehouses to the products’ destinations using the
AmFlex smart phone application. AmFlex participants use a personal vehicle or bicycle, or public transportation, to deliver products ordered through the
Amazon website or mobile applications. They pick up
assigned packages from an Amazon warehouse and
drive an assigned route to deliver the packages. AmFlex delivery providers occasionally cross state lines to
make deliveries, but most of their deliveries take place

6a
intrastate. At the end of each shift, the delivery providers return undelivered packages to Amazon’s warehouses.
II.

The AmFlex Terms of Service

To sign up for the AmFlex program, individuals
must agree to the AmFlex Independent Contractor
TOS in the app, the most recent version of which—and
the one at issue here—was updated in October 2016.
In relevant part, the TOS provides that:
YOU AND AMAZON AGREE TO RESOLVE
DISPUTES BETWEEN YOU AND AMAZON
ON AN INDIVIDUAL BASIS THROUGH FINAL AND BINDING ARBITRATION, UNLESS YOU OPT OUT OF ARBITRATION
WITHIN 14 CALENDAR DAYS OF THE EFFECTIVE DATE OF THIS AGREEMENT, AS
DESCRIBED BELOW IN SECTION 11. If
you do not agree with these terms, do not use
the Amazon Flex app or participate in the Program or provide any Services.
Section 11 of the TOS in turn provides that:
b) TO THE EXTENT PERMITTED BY LAW,
THE PARTIES AGREE THAT ANY DISPUTE RESOLUTION PROCEEDINGS WILL
BE CONDUCTED ONLY ON AN INDIVIDUAL BASIS AND NOT ON A CLASS OR
COLLECTIVE BASIS.
The TOS is governed by “the law of the state of Washington without regard to its conflict of laws principles,

7a
except for Section 11 of [the] Agreement, which is governed by the Federal Arbitration Act and applicable
federal law.” The TOS further provides that, “If any
provision of this Agreement is determined to be unenforceable, the parties intend that this Agreement be
enforced as if the unenforceable provisions were not
present and that any partially valid and enforceable
provisions be enforced to the fullest extent permissible
under applicable law.”
Plaintiffs Rittman, Carroll, and Wehmeyer timely
opted out of arbitration when they signed up for AmFlex and thus are not subject to the arbitration provision. Plaintiff Lawson, however, did not opt out. He
then went on to make deliveries in the Los Angeles
area.
III. The District Court Proceedings
In 2016, Plaintiffs Rittman, Carroll, and
Wehmeyer filed this proposed collective and class action lawsuit alleging that Amazon misclassifies AmFlex users as independent contractors rather than
employees. In 2017, they filed a Second Amended Complaint (SAC), adding Lawson as a plaintiff. The SAC
alleges violations by Amazon of the Fair Labor Standards Act of 1938 (FLSA), 29 U.S.C. § 201, et seq., the
California Labor Code, and Washington state and Seattle municipal wage and hour laws. Plaintiffs seek to
bring the FLSA claims as a nationwide collective action and their state claims as state-wide class actions.

8a
Amazon moved to compel Lawson’s claims to arbitration. The district court stayed the proceedings
pending the resolution of Epic Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018), Van Dusen v. Swift Transportation Co., No. 17-15102 (9th Cir. Jan. 20, 2017), and New
Prime Inc. v. Oliveira, 139 S. Ct. 532 (2019). Following
the Supreme Court’s decision in New Prime, the parties supplemented their briefing on the motion to compel.
The district court denied Amazon’s motion to compel. The court determined that Plaintiffs fell within
the FAA’s transportation worker exemption, which exempts from the FAA’s arbitration enforcement provisions the “contracts of employment of seamen, railroad
employees, or any other class of workers engaged in
foreign or interstate commerce.” 9 U.S.C. § 1. The
court then considered whether the arbitration provision in Section 11 was otherwise valid and enforceable.
Pointing to the text of the TOS’s governing law provision, the court determined that the FAA did not govern
Section 11 in light of the application of the FAA’s exemption, and that the parties did not intend Washington law to apply either. As a result, the court
determined that it was not clear what law would apply
to the provision, or whether the parties intended to arbitrate disputes in the event the FAA did not apply.
Accordingly, the court concluded that there was no
valid agreement to arbitrate and denied Amazon’s motion to compel arbitration. Amazon timely appealed,
and the district court stayed proceedings pending this
appeal.

9a
JURISDICTION AND STANDARDS OF REVIEW
We have jurisdiction pursuant to 9 U.S.C.
§ 16(a)(1)(B). We review an order denying a motion to
compel arbitration de novo. O’Connor v. Uber Techs.,
Inc., 904 F.3d 1087, 1093 (9th Cir. 2018). We review the
validity of an arbitration clause de novo. Cape Flattery
Ltd. v. Titan Maritime, LLC, 647 F.3d 914, 917 (9th Cir.
2011). The factual findings underlying a district
court’s decision are reviewed for clear error. Id. The
interpretation and meaning of contract provisions are
questions of law that we review de novo. Tompkins v.
23andMe, Inc., 840 F.3d 1016, 1021 (9th Cir. 2016).
ANALYSIS
The FAA generally provides that arbitration
agreements “shall be valid, irrevocable, and enforceable, save upon such grounds as exist at law or in equity
for the revocation of any contract.” 9 U.S.C. § 2. The
FAA contains a number of enforcement mechanisms
for private parties to compel arbitration pursuant to a
valid arbitration agreement. The FAA, however, exempts certain contracts from its scope, specifically the
employment contracts of “seamen, railroad employees,
[and] any other class of workers engaged in foreign or
interstate commerce.” 9 U.S.C. § 1; Circuit City Stores,
Inc. v. Adams, 532 U.S. 105, 118–19 (2001). This appeal
requires us to decide whether the AmFlex delivery providers in this case fall within the scope of the exemption. Because we conclude that they do, and thus that
their employment contracts are not subject to the FAA,

10a
we consider and reject Amazon’s further argument
that there is nevertheless a valid and enforceable arbitration agreement between the parties.
I.

The FAA’s Transportation Worker Exemption

Amazon challenges the district court’s conclusion
that AmFlex delivery providers are exempt from the
FAA as transportation workers “engaged in foreign or
interstate commerce.” 9 U.S.C. § 1. According to Amazon, its delivery providers participate in “purely intrastate activities” when they make last mile deliveries
and thus are not “engaged in interstate commerce.”
Amazon’s position rests on the notion that transportation workers must actually cross state lines to be “engaged in interstate commerce” for the exemption to
apply. We reject that construction of that statute.
Properly construed, § 1 encompasses the contracts of
the AmFlex delivery providers in this case.
A. The Meaning of “Engaged in Interstate
Commerce” in § 1
To resolve Amazon’s appeal, we must first interpret the meaning of the phrase “engaged in interstate
or foreign commerce,” as used in § 1 of the FAA. We
begin by briefly turning to the Supreme Court’s decision in Circuit City, in which the Court addressed the
scope and application of § 1. The Court held that § 1
narrowly “exempts from the FAA only contracts of employment of transportation workers,” and not all

11a
contracts of employment generally. Id. at 119; see also
id. at 118 (“[T]he location of the phrase ‘any other class
of workers engaged in . . . commerce’ in a residual provision, after specific categories of workers have been
enumerated, undermines any attempt to give the provision a sweeping, open-ended construction.”). To arrive at that conclusion, the Court interpreted “[t]he
plain meaning of the words ‘engaged in commerce’ [to
be] narrower than the more open-ended formulation
‘affecting commerce’ and ‘involving commerce’ ” when
construed “with reference to the statutory context . . .
and in a manner consistent with the FAA’s purpose.”
Id. at 118. In limiting the exemption’s scope to employment contracts of transportation workers, the Court
did not decide the specific issue that Amazon raises:
whether transportation workers must cross state lines
to be considered workers “engaged in commerce” for
the purposes of the exemption’s application.
We do not, however, approach this issue on a blank
slate. The plain meaning of the relevant statutory text,
case law interpreting the exemption’s scope and application, and the construction of similar statutory language all support the conclusion that transportation
workers need not cross state lines to be considered “engaged in foreign or interstate commerce” pursuant to
§ 1.
To ascertain the plain meaning of the statutory
text, we look to the “ordinary meaning at the time Congress enacted the statute.” New Prime, 139 S. Ct. at
539 (alterations adopted) (internal quotation marks
omitted) (quoting Wis. Cent. Ltd. v. United States, 138

12a
S. Ct. 2067, 2074 (2018)). When Congress enacted the
FAA, the word “engaged” meant “occupied or employed.” Engaged, Webster’s New International Dictionary (1st ed. 1909). “Commerce” was defined as:
Intercourse by way of trade and traffic between different people or states and the citizens or inhabitants thereof, including not only
the purchase, sale, and exchange of commodities, but also the instrumentalities and agencies by which it is promoted and the means
and appliances by which it is carried on, and
the transportation of persons as well as of
goods, both by land and by sea.
Commerce, Black’s Law Dictionary (2d ed. 1910).
Taken together, those definitions can reasonably be
read to include workers employed to transport goods
that are shipped across state lines. The ordinary
meaning of those words does not suggest that a worker
employed to deliver goods that originate out-of-state to
an in-state destination is not “engaged in commerce”
any less than a worker tasked with delivering goods
between states.
Our reading of the statutory text is reinforced by
decisions of other circuits and our own that have applied the exemption, as well as decisions that interpret
similar statutory language. Most recently, in a nearly
identical case involving the AmFlex program, the First
Circuit held that AmFlex delivery providers fall within
the § 1 exemption. Waithaka v. Amazon.com, Inc., No.
19-1848, — F.3d —, 2020 WL 4034997, at *1 (1st Cir.
July 17, 2020). Relying on much of the same reasoning

13a
discussed below, see infra pp. 15–21, the First Circuit
looked to statutes contemporaneous to the FAA, in particular the Federal Employees Liability Act (FELA) of
1908, to conclude that the meaning of the phrase “engaged in interstate commerce,” as understood at the
time of the FAA’s passage, was not limited to those
transportation workers who themselves crossed state
lines. Waithaka, 2020 WL 4034997, at *5–8.
Further, at the time the Supreme Court decided
Circuit City, every other circuit to have addressed the
issue presented here interpreted § 1 to exempt “the
employment contracts of workers actually engaged in
the movement of goods in interstate commerce.” Cole v.
Burns Int’l Sec. Servs., 105 F.3d 1465, 1471 (D.C. Cir.
1997) (emphasis added) (collecting cases). Courts did
not interpret that definition to require that a worker
actually cross state lines for purposes of the exemption. For example, in Palcko v. Airborne Express, Inc.,
the Third Circuit held that a supervisor for a package
transportation and delivery company who supervised
drivers delivering packages in the Philadelphia area
was a transportation worker engaged in interstate
commerce because her work was “so closely related [to
interstate and foreign commerce] as to be in practical
effect part of it.”1 372 F.3d 588, 593 (3d Cir. 2004)
1

Recently, the Third Circuit affirmed Palcko and expanded
its test to include workers who transport people, like rideshare
services. Singh v. Uber Techs., Inc., 939 F.3d 210, 219 (3d Cir.
2019). “[T]he residual clause of § 1 is not limited to transportation workers who transport goods, but may also apply to those
who transport passengers, so long as they are engaged in interstate commerce or in work so closely related thereto as to be in

14a
(alterations in original) (quoting Tenney Eng’g, Inc. v.
United Elec. & Mach. Workers of Am., 207 F.2d 450, 452
(3d Cir. 1953)).
Federal district courts and state courts have also
understood § 1 not to require that a worker cross state
lines. See, e.g., Nieto v. Fresno Beverage Co., Inc., 245
Cal. Rptr. 3d 69, 76 (Ct. App. 2019) (stating that a beverage company’s deliveries of products purchased from
national and international companies, “although intrastate, were essentially the last phase of a continuous
journey of the interstate commerce . . . being transported until reaching its destination[ ] to [the company’s] customers.”); Christie v. Loomis Armored US,
Inc., No. 10-cv-02011-WJM-KMT, 2011 WL 6152979, at
*3 (D. Colo. Dec. 9, 2011) (finding intrastate delivery
driver of currency exempt because the deliveries involved “a good that is undisputedly in the stream of interstate commerce”); Ward v. Express Messenger Sys.,
Inc., 413 F. Supp. 3d 1079, 1085–87 (D. Colo. 2019); Zamora v. Swift Transp. Corp., No. EP-07-CA-00400-KC,
2008 WL 2369769, at *9 (W.D. Tex. June 3, 2008), aff ’d
on other grounds, 319 F. App’x 333 (5th Cir. 2009).
Courts have determined that workers do not fall
within the scope of § 1’s exemption when their job duties are “only tangentially related to [the] movement of
goods.” Lenz v. Yellow Transp., Inc., 431 F.3d 348, 351–
52 (8th Cir. 2005). For example, in Lenz, the court held
practical effect part of it.” Id. The court remanded to the district
court to decide whether rideshare drivers are engaged in interstate transportation within the meaning of § 1. Id. at 227.

15a
a customer service representative for a transportation
carrier was not engaged in interstate commerce because he “never directly transported goods in interstate commerce,” “had no direct responsibility for
transporting goods in interstate commerce,” “never
handled any of the packages that [the carrier] delivered,” or “directly supervise[d] the drivers in interstate
commerce,” among other reasons. Id. at 352–53. Similarly, the Eleventh Circuit concluded that “workers
who incidentally transported goods interstate as a part
of their job in an industry that would otherwise be unregulated” did not fall within the exemption. Hill v.
Rent-A-Center, Inc., 398 F.3d 1286, 1289 (11th Cir.
2005) (holding that an account manager for a rent-toown business who occasionally made out-of-state deliveries was not part of a class of workers in the transportation industry for purposes of the § 1 exemption).
Case law interpreting the phrase “engaged in commerce” in § 1 accords with how courts have interpreted
similar statutory language. For example, courts interpreting FELA have held that workers were employed
in interstate commerce even when they did not cross
state lines.
FELA provides that “[e]very common carrier by
railroad while engaging in commerce between any of
the several States . . . shall be liable in damages to any
person suffering injury while he is employed by such
carrier in such commerce” if the injury “results in
whole or in part from the negligence of ” the carrier. 45
U.S.C. § 51 (emphasis added). Prior to the FAA’s enactment in 1925, the Supreme Court articulated that “the

16a
true test of such employment in [such] commerce in the
sense intended is, [w]as the employee, at the time of
the injury, engaged in interstate transportation, or in
work so closely related to it as to be practically a part
of it?” Shanks v. Del., Lackwanna & W. R.R. Co., 239
U.S. 556, 558 (1916). The Court cited numerous examples of injured employees considered to be engaged in
interstate commerce when they did not cross state
lines in the course of their work.2 Id. at 558–59
2

Amazon attempts to distinguish cases that interpret FELA
on the basis that FELA “require[s] a broad construction directly
opposite to the narrow construction that the Exemption requires
given the FAA’s purposes.” But FELA’s breadth concerns what
conduct constitutes an employer’s negligence within the meaning
of the act, not the meaning of “employed in commerce” that concerns us here. See Atchison, Topeka & Santa Fe Ry. Co. v. Buell,
480 U.S. 557, 561 (1987) (“A primary purpose of the Act was to
eliminate a number of traditional defenses to tort liability and to
facilitate recovery in meritorious cases.”); id. at 562 n.8 (“Indeed,
in the spirit of broad construction, the FELA has been construed
to cover some intentional torts even though its text only mentions
negligence.”); Jamison v. Encarnacion, 281 U.S. 635, 640 (1930),
superseded by statute on other grounds as recognized in McDermott Int’l, Inc. v. Wilander, 498 U.S. 337, 348 (1991) (“The Act is
not to be narrowed by refined reasoning or for the sake of giving
‘negligence’ a technically restricted meaning. It is to be construed
liberally to fulfill the purposes for which it was enacted, and to
that end the word [‘negligence’] may be read to include all the
meanings given to it by courts, and within the word as ordinarily
used.”). Moreover, contrary to the dissent’s position, “there is no
indication that the remedial purpose of the FELA affected the
Supreme Court’s conclusion that injured railroad workers who
were transporting within one state goods destined for or coming
from other states . . . were engaged in interstate commerce.”
Waithaka, 2020 WL 4034997, at *8. As the First Circuit explained, “FELA was concerned with the activities of employees,
just as the FAA is. Indeed, in . . . the FELA precedents that we

17a
(collecting cases). See also Phila. & R. Ry. Co. v. Hancock, 253 U.S. 284, 286 (1920) (railroad worker injured
while operating a train carrying coal, some of which
would ultimately be shipped out of state, was engaged
in interstate commerce for FELA purposes because
“the shipment was but a step in the transportation of
the coal to real and ultimate destinations in another
state”); Waithaka, 2020 WL 4034997, at *5 (“[W]orkers
‘engaged in interstate commerce’ did not refer only to
those workers who themselves carried goods across
state lines, but also included at least two other categories of people: (1) those who transported goods or passengers that were moving interstate,” and “(2) those
who were not involved in transport themselves but
were in positions ‘so closely related’ to interstate transportation ‘as to practically be a part of it” (citations
omitted).). “In incorporating almost exactly the same
have discussed, the question before the Court was the same as it
is here: whether certain transportation workers engaged in interstate commerce.” Id. at *7.
Amazon also points out that Congress amended FELA to
eliminate courts’ line-drawing between intrastate and interstate
activities. The 1939 amendment added a paragraph that broadened FELA’s application beyond those “employed in commerce” to
include “[a]ny employee of a carrier, any part of whose duties . . .
shall be the furtherance of interstate or foreign commerce; or
shall, in any way directly or closely and substantially, affect such
commerce as set forth shall, for the purposes of this chapter, be
considered as being employed by such carrier in such commerce
and shall be considered entitled to the benefits of this chapter.”
45 U.S.C. § 51. Whatever the “very fine distinctions” drawn in
cases interpreting FELA before 1939, see S. Pac. Co. v. Gileo, 351
U.S. 493, 497 (1956), there is no question that the “employed in
commerce” language embraced employees who did not cross state
lines but were nevertheless engaged in interstate commerce.

18a
phraseology into the Arbitration Act of 1925 its draftsmen and the Congress which enacted it must have had
in mind this current construction of the language
which they used.” Tenney, 207 F.2d at 453.
Similarly, the Supreme Court has held that the actual crossing of state lines is not necessary to be “engaged in commerce” for purposes of the Clayton and
Robinson-Patman Acts. In a pair of cases decided in
the same term, the Court clarified that Congress’s use
of the term “engaged in commerce” was a limited assertion of its jurisdiction, and “denote[d] only persons
or activities within the flow of interstate commerce—
the practical, economic continuity in the generation of
goods and services for interstate markets and their
transport and distribution to the consumer.” Gulf Oil
Corp. v. Copp Paving Co., Inc., 419 U.S. 186, 195 (1974).
Put another way, “[t]o be engaged ‘in commerce’ within
the meaning of [the Clayton Act], a corporation must
itself be directly engaged in the production, distribution or acquisition of goods or services in interstate
commerce.” United States v. Am. Bldg. Maint. Indus.,
422 U.S. 271, 283 (1975) (holding that the phrase “ ‘engaged in commerce’ as used in § 7 of the Clayton Act
means engaged in the flow of interstate commerce”).
Thus, “a firm engaged in entirely intrastate sales of asphaltic concrete, a product that can be marketed only
locally,” even though the product was used to surface
roads and interstate highways, was not “engaged in
commerce” when it did not make interstate sales and
was not otherwise involved in national markets. Gulf
Oil, 419 U.S. at 188, 195. The Court suggested that the

19a
firm could have satisfied the interstate commerce hook
by showing that “the local market in asphaltic concrete
[was] an integral part of the interstate market in other
component commodities or products.” Id. at 196.3
Although “statutory jurisdictional formulations”
do not “necessarily have a uniform meaning whenever
used by Congress,” Circuit City, 532 U.S. at 118 (quoting Am. Bldg., 422 U.S. at 277), the fact that the
phrases “employed in commerce” or “engaged in commerce” have not been interpreted to require businesses
or employees to cross state lines persuades us that Amazon’s unduly restrictive construction of the phrase is
unwarranted. See Swift & Co. v. United States, 196
U.S. 375, 398–99 (1905) (“[C]ommerce among the
states is not a technical legal conception, but a practical one, drawn from the course of business.”).
Amazon insists that the term “engaged in commerce,” as used in those statutes and as discussed in
3

Amazon’s further concern that these statutes encompass
broader conduct than § 1 does not relate to the interpretation of
the term “engaged in commerce,” but instead pertains to the subject that phrase modifies in those particular statutes. For example, citing American Building, 422 U.S. at 283, Amazon claims
that “[i]n cases applying other statutes, courts have included
much more than transportation in the ‘flow’ of commerce, including the production of goods for interstate sales.” That case involved the Clayton Act, which made it unlawful “for any person
engaged in commerce” to discriminate in price. See Gulf Oil, 419
U.S. at 193 n.9 (emphasis added). Here, however, the concern
that § 1 may sweep so broadly as to apply to corporations that
manufacture or produce goods in interstate commerce is unfounded, because § 1 applies only to transportation workers engaged in such commerce.

20a
Circuit City, is not akin to the phrase “engaged in foreign or interstate commerce” in § 1 of the FAA. Amazon
argues that we must interpret the latter phrase in § 1
so as not to read words out of the statute. See Circuit
City, 532 U.S. at 117 (discussing Gulf Oil, 419 U.S. at
202, and Am. Bldg., 422 U.S. at 283). That contention
is not persuasive.
The term “in commerce” refers to interstate and
foreign commerce—the type of commerce that Congress has the power to regulate. See, e.g., Gulf Oil, 419
U.S. at 195 (“[T]he distinct ‘in commerce’ language of
the Clayton and Robinson-Patman Act provisions . . .
appears to denote only persons or activities within the
flow of interstate commerce.” (emphasis added)); Am.
Bldg., 422 U.S. at 285–86 (“[S]ince the Benton companies did not participate directly in the sale, purchase,
or distribution of goods or services in interstate commerce, they were not ‘engaged in commerce’ within the
meaning of § 7 of the Clayton Act.”) (emphasis added)).
The FAA defines the term “commerce” as “commerce
among the several States or with foreign nations . . . ”
9 U.S.C. § 1. We see no way to meaningfully distinguish between the word “commerce” used in § 2, defined as “commerce among the several States or with
foreign nations,” with the “foreign or interstate commerce” referenced in § 1. As Circuit City explains, Congress did not vary what it regulated in these
provisions, only the reach of its regulation. Circuit
City, 532 U.S. at 115, 117–18 (explaining that the
phrase “affecting” or “involving” commerce demonstrated an intent to regulate to the full extent of

21a
Congress’s Commerce Clause authority, whereas “engaged in commerce” is “understood to have a more limited reach”). Indeed, interpreting § 1, the Supreme
Court itself used the phrase “engaged in commerce” as
shorthand for the statutory text “engaged in foreign or
interstate commerce.” See Circuit City, 532 U.S. at 115,
116, 118.
Amazon and the dissent further contend that we
must narrow the definition of “engaged in foreign or
interstate commerce” to accord with the FAA’s statutory context and pro-arbitration purposes. We recognize that Circuit City rejected an expansive reading of
the transportation worker exemption based in part on
construing the statutory phrase “engaged in commerce” more narrowly than the phrase “involving commerce” in § 2. But Circuit City interpreted the phrase
in that manner to explain why the exemption applied
only to the employment contracts of transportation
workers, as opposed to all employment contracts. See
532 U.S. at 118–19. Nothing in Circuit City requires
that we rely on the pro-arbitration purpose reflected in
§ 2 to even further limit the already narrow definition
of the phrase “engaged in commerce.” The authorities
we have discussed simply do not run afoul of Circuit
City because, as we have explained, Circuit City did not
address what is at issue here.4
4

Amazon also relies on Circuity City’s discussion of existing
and forthcoming legislation around the time the FAA was passed
that provided for arbitration of disputes for transportation workers to argue that Congress did not intend the § 1 exemption to
encompass the type of delivery providers at issue here. See

22a
In light of the weight of authority interpreting “engaged in commerce” not strictly to require the crossing
of state lines, we are not persuaded that § 1 is amenable to the interpretation offered by Amazon. Accordingly, we conclude that § 1 exempts transportation
workers who are engaged in the movement of goods in
interstate commerce, even if they do not cross state
lines.
B. Application of § 1 to AmFlex Delivery
Providers
In light of our construction of the statute and consideration of the record, we conclude that AmFlex delivery providers belong to a class of workers engaged
in interstate commerce that falls within § 1’s exemption.
Amazon is “one of the world’s largest online retailers” that “work[s] closely with freight and transport
companies on a massive scale to ensure that every
individual shipment gets where it needs to go.” Amazon Logistics, with an aim to “expand transportation
capabilities worldwide,” seeks to achieve its goal of
Circuit City, 532 U.S. at 120–21. For the reasons the Third Circuit persuasively articulated in Singh, 939 F.3d at 225, we refuse
to rely on speculation in Circuit City as to Congress’s intent—not
only because doing so would be imprudent, but also because the
Supreme Court cautioned against it. See Circuit City, 532 U.S. at
119–20. See also Waithaka, 2020 WL 4034997, at *10 (“[T]he residual clause means that Congress contemplated the future exclusion of workers other than railroad employees and seamen,
and it did not limit that exclusion to those with available dispute
resolution systems. Purpose cannot override text.”).

23a
“provid[ing] customers with an incredible package delivery experience through the last mile of the order” by
partnering with independent delivery businesses and
AmFlex delivery providers. AmFlex delivery providers
are a class of workers that transport packages through
to the conclusion of their journeys in interstate and foreign commerce.
There is no suggestion that the goods AmFlex
workers deliver originate in the same state where deliveries take place, such that delivery providers are
making purely intrastate deliveries. Rather, AmFlex
workers pick up packages that have been distributed
to Amazon warehouses, certainly across state lines,
and transport them for the last leg of the shipment to
their destination. Although Amazon contends that
AmFlex delivery providers are “engaged in local, intrastate activities,” the Amazon packages they carry are
goods that remain in the stream of interstate commerce until they are delivered. AmFlex delivery providers are thus transportation workers engaged in the
movement of interstate commerce and exempt from
the FAA’s application.
The cases on which Amazon relies do not persuade
us otherwise. In People of State of New York ex rel.
Pennsylvania Railroad Co. v. Knight, 192 U.S. 21
(1904), the Supreme Court held that an interstate railroad that charged separately for a wholly intrastate
cab service that transported railroad passengers to
and from the ferry was subject to state taxation because the cab service was “exclusively rendered within
the limits of the city” and “contracted and paid for

24a
independently of any contract or payment for strictly
interstate transportation.” Id. at 26.
Amazon contends that the “separation in fact . . .
between transportation service wholly within the state
and that between the states,” id. at 27, is relevant here,
where Amazon contracts for local deliveries with
AmFlex drivers. While that fact may be relevant
for taxation purposes, the Court explained that,
“[u]ndoubtedly, a single act of carriage or transportation wholly within a state may be part of a continuous
interstate carriage or transportation. Goods shipped
from Albany to Philadelphia may be carried by the
New York Central Railroad only within the limits of
New York, and yet that service is in interstate carriage.” Id. at 26. That is precisely the case here. AmFlex drivers’ transportation of goods wholly within a
state are still a part of a continuous interstate transportation, and those drivers are engaged in interstate
commerce for § 1’s purposes.
A.L.A. Schechter Poultry Corp. v. United States,
295 U.S. 495 (1935) is similarly distinguishable. In
Schechter Poultry, live poultry shipped from out of
state “came to rest” when they reached slaughterhouses for “slaughter and local sale to retail dealers
and butchers who in turn sold directly to consumers.”
Id. at 543. “The interstate transactions in relation to
that poultry” thus ended at the slaughterhouse: “So far
as the poultry here in question is concerned, the flow
in interstate commerce had ceased. The poultry had
come to a permanent rest within the state. It was not
held, used, or sold by defendants in relation to any

25a
further transactions in interstate commerce and was
not destined for transportation to other states.” Id. at
542–43. Once the poultry reached the slaughterhouses, any further “commerce” involving the poultry
required new or subsequent transactions, all of which
took place within the state of the slaughterhouse.
Those transactions thus marked the dividing line between interstate and intrastate commerce. Id.
Here, however, Amazon packages do not “come to
rest,” at Amazon warehouses, and thus the interstate
transactions do not conclude at those warehouses. The
packages are not held at warehouses for later sales to
local retailers; they are simply part of a process by
which a delivery provider transfers the packages to a
different vehicle for the last mile of the packages’ interstate journeys. The interstate transactions between
Amazon and the customer do not conclude until the
packages reach their intended destinations, and thus
AmFlex drivers are engaged in the movement of interstate commerce.5
We agree with the district court that cases involving food delivery services like Postmates or Doordash
are likewise distinguishable. Those cases recognize
that local food delivery drivers are not “engaged in the
interstate transport of goods” because the prepared
meals from local restaurants are not a type of good that
are “indisputably part of the stream of commerce.”
5

We do not purport, as the dissent contends, to create a
“come to rest” doctrine. Amazon’s reliance on Knight and Schecter
Poultry is misplaced, and, as we explain, those cases are readily
distinguishable from the facts at hand.

26a
Levin v. Caviar, Inc., 146 F. Supp. 3d 1146, 1153 (N.D.
Cal. 2015) (internal quotation marks omitted); accord
Lee v. Postmates Inc., 2018 WL 6605659, at *7 (N.D.
Cal. Dec. 17, 2018) (concluding that deliveries for local
merchants by a company that does not hold itself out
as transporting goods between states are not engaged
in interstate commerce). The Seventh Circuit’s decision in Wallace v. Grubhub Holdings, Inc., — F.3d —,
2020 WL 4463062 (7th Cir. 2020) is, as well. In Wallace, the court held that Grubhub drivers, who deliver
take-out orders from local restaurants, are not covered
by the § 1 exemption. Id. at *3. The court determined
that the focus of the § 1 inquiry is “on the worker’s active engagement in the enterprise of moving goods
across interstate lines.” Id. at *2 (citing Waithaka,
2020 WL 4034997, at *11, for the proposition that
“truckers who drive an intrastate leg of an interstate
route” fall within the exemption). “Put differently, a
class of workers must themselves be ‘engaged in the
channels of foreign or interstate commerce.”6 Id. at *3
(quoting McWilliams v. Logicon, Inc., 143 F.3d 573, 576
(10th Cir. 1998)). Unlike in Wallace, here AmFlex
workers complete the delivery of goods that Amazon
ships across state lines and for which Amazon hires
AmFlex workers to complete the delivery. AmFlex
workers form a part of the channels of interstate

6

Despite the dissent’s reliance on Wallace, the Seventh Circuit did not adopt the dissent’s proposed interpretation, that
workers must actually cross state lines to be considered “engaged
in interstate commerce” for purposes of § 1.

27a
commerce, and are thus engaged in interstate commerce as we understand that term.7
Our dissenting colleague rejects these distinctions, insisting that all local delivery is the same, regardless of what is being delivered or from where. The
dissent contends that “AmFlex workers’ ‘engagement’
as workers delivering goods from out of state loses
sight of the fact that the out-of-state nature of the
goods is irrelevant to the actual work the AmFlex
workers perform.” As we have explained, the dissent’s
characterization ignores Supreme Court precedent interpreting nearly identical language that does, in fact,
consider the out-of-state nature of goods. See, e.g.,
Hancock, 253 U.S. at 286 (rejecting the argument that
coal transported by railroad was not part of interstate
commerce in its preliminary intrastate journey and
concluding that “[t]he determining circumstance is
that the shipment was but a step in the transportation
of the coal to real and ultimate destinations in another
state”).

7

Setting aside whatever merits of the dissent’s discussion of
jarred sauces and canned sodas, the fact remains that AmFlex
workers are engaged to deliver packages from out of state or out
of the country, even if they also deliver food from local restaurants. They are thus engaged in interstate commerce, even if that
engagement also involves intrastate activities. See Harden v.
Roadway Package Sys., Inc., 249 F.3d 1137, 1140 (9th Cir. 2001)
(delivery driver who “contracted to deliver packages throughout
the United States” (emphasis added) was engaged in interstate
commerce for purposes of § 1, even where there was no indication
the driver himself actually crossed state lines).

28a
In addition, the dissent’s preference to define AmFlex delivery providers as a class of workers engaged
in purely local deliveries turns on the contention that
the exemption’s “coverage does not depend on the company for whom the delivery person works.” We are persuaded by the First Circuit’s reasoning, which squarely
rejected this argument:
Although our ultimate inquiry is whether a
class of workers is “engaged in . . . interstate
commerce,” the question remains how we
make that determination. The nature of the
business for which a class of workers perform
their activities must inform that assessment.
After all, workers’ activities are not pursued
for their own sake. Rather, they carry out the
objectives of a business, which may or may not
involve the movement of “persons or activities
within the flow of interstate commerce.”
Waithaka, 2020 WL 4034997, at *8. Although the dissent contends that the nature of a business is not tethered to the text of the residual clause, the residual
clause does not foreclose such a consideration. Indeed,
“[c]onsideration of the nature of the hiring company’s
business carries out the Supreme Court’s instruction
that we must construe the residual clause of Section 1
consistently with the specific preceding categories of
workers—‘seamen’ and ‘railroad employees’.” Id. (citation omitted). “Plainly, these groups, defined by the nature of the business for which they work, demonstrate
that the activities of a company are relevant in determining the applicability of the FAA exemption to other
classes of workers.” Id.

29a
In this case, Amazon’s business includes not just
the selling of goods, but also the delivery of those goods,
typically undertaken by those businesses we have considered to be engaged in foreign and interstate commerce, e.g., FedEx and UPS. See Harden, 249 F.3d at
1140 (holding delivery driver for predecessor company
of FedEx fell within the § 1 exemption).8 Were Amazon
8

The dissent places great weight on Harden, focusing on the
“plainly interstate nature of the delivery work” in that case. But
there is no indication that the delivery driver in that case actually
crossed state lines, as the dissent here contends is necessary to be
engaged in interstate commerce. Rather, we concluded in Harden
that delivery drivers were engaged in interstate commerce for
purposes of § 1 where they contracted to “provid[e] a small package information, transportation and delivery service throughout
the United States, with connecting international service.”
Harden, 249 F.3d at 1139. In that case, we focused not on the
precise movements of specific workers—as our decision did not
turn on the driver’s specific routes and whether they were interstate but on the fact that the worker had been engaged to move
packages “throughout the United States, with connecting international service.” Id. at 1140. Indeed, in Harden, we did not distinguish between long-haul transportation or local deliveries,
despite the dissent’s insistence that the FAA requires as much.
Nothing in that decision supports the dissent’s assumption that
the delivery driver himself made deliveries “throughout the
United States.” That’s not how companies like UPS or FedEx, the
successor to the company in Harden, work. Just like Amazon,
those companies generally use long-haul truckers to transport
goods across state lines to distribution warehouses, where intrastate delivery drivers pick up packages to make last-mile deliveries from those warehouses to the packages’ final destinations.
Without more detail about the type of work the plaintiff in
Harden engaged in, the more plausible inference is that the driver
there, specifically a delivery driver, made last-mile deliveries
wholly within a given state, as opposed to piloting cargo planes to
provide “connecting international service” or providing other interstate “information [or] transportation” services. Id.

30a
to use a proprietary ship fleet or rail system to accomplish the same goals, those workers would be subject
to the exemption. Contrary to the dissent’s understanding, the “limiting” factors we rely on today stem
directly from the statute and do not run afoul of the
canon of ejusdem generis.
The dissent also contends that Amazon’s reading
of the statute is more beneficial because “it is relatively
easy to apply,” as opposed to its view that we undertake
impermissible “line-drawing” not supported by the
statute. However, as the First Circuit explained, linedrawing “is a product of Circuit City itself. In concluding that the residual clause does not encompass all
employment contracts, but only those of transportation
workers, the Court left it to the lower courts to assess
which workers fall within that category. Doing so unavoidably requires the line-drawing that courts often
do.” Waithaka, 2020 WL 4034997, at *11. The same is
true with respect to determining whether a class of
workers is engaged in interstate commerce. If that
line-drawing proves to be unmanageable, it is up to
Congress, not jurists, to revise the statute. Congress
did so with FELA, see supra note 2, and we have no
reason to believe it cannot do so here. Contrary to the
dissent’s position, we do not interpret the FAA based
on aspiration, but rather according to the meaning of
the statute’s words at the time the FAA was enacted.9
New Prime, 139 S. Ct. at 539.

9

Notably, the only contemporaneous support for the dissent’s preferred interpretation comes from the same dictionaries

31a
Accordingly, we conclude that AmFlex delivery
providers fall within the exemption, even if they do not
cross state lines to make their deliveries. The district
court did not err in denying Amazon’s motion to compel
arbitration on that basis.
II

There is No Valid and Enforceable Arbitration Agreement

Although we have concluded that the AmFlex
workers are exempt from the FAA’s coverage provisions, Amazon argues that we may nevertheless enforce the arbitration provision pursuant to federal law
and Washington state law. We disagree.
A. Federal Law
Amazon argues that we must nevertheless enforce
the arbitration provision in accordance with federal
law pursuant to the TOS’s choice of law provision. According to Amazon, the parties did not negotiate for the
FAA to apply only to make the FAA inapplicable, such
that “[f ]or the parties’ choice-of-FAA provision to have
any meaning, it must mean more than that the FAA
governs to the extent it governs of its own force.” That
circular argument fails. Because we must give effect
we use to ascertain the FAA’s meaning at is enactment. For all
its critiques of FELA, the dissent ignores the longstanding reliance on that statute to interpret the FAA’s text, dating back to
the 1950s, see Tenney, 207 F.2d at 453; Waithaka, 2020 WL
4034997, at *6, and offers no other authority from the relevant
time period to support its position.

32a
to the parties’ contract as written, the FAA does not
apply because the arbitration provision is still subject
to the transportation worker exemption in § 1.
Amazon does not identify what other “applicable
federal law” would govern the arbitration provision,
apart from the FAA. It argues that “the FAA’s enforcement provisions are a body of ‘substantive law’ ” that
the parties are free to agree to apply, just as they could
“agree to apply the substantive contract law of a particular state that would not apply by its own force.”
Unlike this case, the cases Amazon cites involve
arbitration agreements to which the FAA applies. See,
e.g., Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 24–25 (1983) (“The effect of [§ 2 of the
FAA] is to create a body of federal substantive law of
arbitrability, applicable to any arbitration agreement
within the coverage of the Act.” (emphasis added)).
Those cases discuss the applicability of the FAA’s substantive law in federal diversity cases and in state
court cases where courts would typically apply state
substantive law, concluding that, consistent with the
FAA’s pro-arbitration goals of overcoming judicial
hostility to arbitration, the FAA preempts state antiarbitration statutes. Allied-Bruce Terminix Cos., Inc. v.
Dobson, 513 U.S. 265, 271 (1995); Southland Corp. v.
Keating, 465 U.S. 1, 10, 13–14 (1984) (concluding that
the FAA preempts state laws that “require a judicial
forum for the resolution of claims which the parties
agreed to resolve by arbitration”); see also Volt Info.
Scis., Inc. v. Bd. of Trs. of Leland Stanford Junior Univ.,
489 U.S. 468, 479 (1989) (concluding that the

33a
contracting parties are free to agree “to abide by state
rules of arbitration,” and “enforcing those rules according to the terms of the agreement is fully consistent
with the goals of the FAA”). They do not support Amazon’s argument that parties may contract around the
FAA’s transportation worker exemption. Accordingly,
we cannot conclude that any federal law governs the
TOS’s arbitration provision.
B. Washington State Law
Amazon next asserts that, in the event the FAA
and federal law do not apply, Washington state law
governs the arbitration provision pursuant to the
TOS’s severability provision or by applying choice-oflaw principles. We disagree.
The TOS provides that: “These Terms are governed by the law of the state of Washington without
regard to its conflict of laws principles, except for Section 11 of this Agreement, which is governed by the
Federal Arbitration Act and applicable federal law.”
Amazon contends that the district court should have
severed the choice-of-FAA provision pursuant to this
provision and, thus, Washington law would apply to
the TOS in its entirety.
Two principles of contract interpretation under
Washington law foreclose Amazon’s desired result.
Pursuant to Washington law, a court gives effect to a
severability clause if the court “can easily excise the
unconscionable provision without essentially rewriting the contract.” McKee v. AT&T Corp., 191 P.3d 845,

34a
861 (Wash. 2008) (en banc). Washington law also follows the contract law principle that “any ambiguity in
a contract will be construed against the drafter.” Dennis v. Great Am. Ins. Co., 503 P.2d 1114, 1117 (Wash.
App. 1972). Applying those principles here leads us to
reject Amazon’s arguments.
Even if we assume arguendo that the provision is
susceptible to a severability analysis,10 it does not help
Amazon. Were we to sever the choice-of-FAA clause,
the governing law provision would state that the TOS
is “governed by the law of the state of Washington
without regard to its conflict of laws principles, except
for Section 11 of this Agreement.” In that case, the
plain language of the contract would prohibit applying
Washington law to the arbitration provision.
To escape that result, Amazon would have us go
further and sever the entire “except for” clause. In
light of the fact that the provision expressly treats the
arbitration provision differently, that approach would
violate the principle that we are not free to rewrite the
contract under the guise of severability. Lawson further argues that Amazon’s approach runs the risk of
reforming the contract if the parties did not intend
that Washington law apply to the arbitration provision
under any circumstances. We need not reach that
question. Because it is not clear that the parties intended to apply Washington law to the arbitration
10

We fail to see how the choice-of-FAA clause that Amazon
drafted is unconscionable merely because the provision does not
work as Amazon might have intended.

35a
provision in the event the FAA did not apply, we construe ambiguity in the contract against Amazon to
avoid that result.11
Amazon’s choice-of-law arguments likewise fail.
Amazon argues that Washington law presumptively
governs in the absence of a conflict of law. Washington
law recognizes that “[w]here laws or interests of concerned states do not conflict, the situation presents a
false conflict and the presumptive local law [applies].”
Shanghai Commercial Bank Ltd. v. Kung Da Chang,
404 P.3d 62, 65 (Wash. 2017) (internal quotation marks
omitted). Even if we assume that this principle applies, we do not see what it proves. As we have explained, we cannot sever the clause that applies
Washington law to the contract “except for Section 11”
from the governing law provision without impermissibly rewriting the contract. Amazon cites no authority
that would allow us to conclude that the presumption
in favor of local law overcomes express contractual language that precludes its application.
Because there is no law that governs the arbitration provision, we agree with the district court that
there is no valid arbitration agreement. We therefore

11

We recognize that the First Circuit’s decision in Waithaka
reached a different result in interpreting identical contract terms.
However, it is not clear that the court applied the Washington
state law principles of contract interpretation that we identify
here. See Waithaka, 2020 WL 4034997, at *12 & n.13. Applying
those principles, we are not persuaded by Amazon’s severability
arguments.

36a
reject Amazon’s alternative bases to compel arbitration.
CONCLUSION
We hold that the AmFlex delivery providers in this
case are transportation workers engaged in interstate
commerce and are thus exempt from the FAA’s enforcement provisions pursuant to § 1. We further hold that
the parties did not enter into a valid agreement to arbitrate and that there is no other ground upon which
we may enforce the arbitration provision. We therefore
affirm the district court’s denial of Amazon’s motion to
compel arbitration.
AFFIRMED.

BRESS, Circuit Judge, dissenting:
The Federal Arbitration Act (FAA) broadly allows
agreements to arbitrate, but contains a narrow exemption for certain transportation workers: “[N]othing
herein contained shall apply to contracts of employment of seamen, railroad employees, or any other class
of workers engaged in foreign or interstate commerce.”
9 U.S.C. § 1. Like “seamen” and “railroad employees,”
are Amazon AmFlex workers who deliver packages,
groceries, and restaurant food locally and intrastate
using their cars, bicycles, and public transportation a
“class of workers engaged in foreign or interstate commerce”? The question is a reasonably close one that is

37a
made difficult by the need to apply somewhat opaque,
century-old statutory language to a technology-based
convenience of modern life. But on the metrics that
matter—statutory text, precedent, and the workability
of the competing regimes under the FAA’s contemplated objectives—I think Amazon has the better of the
argument, in some instances by a leg and in others by
a length.
In my view, for a delivery worker to be “engaged
in” interstate commerce under the FAA, he must belong to a “class of workers” that crosses state lines in
the course of making deliveries. The majority’s contrary reading is less supported in the statutory text
and invites difficult line-drawing problems. Seeking to
resist the logical implication of its holding—under
which the FAA’s narrow transportation worker exemption could broadly include anyone who delivers goods
between any two locations—the majority constructs a
new FAA doctrine under which the exemption turns on
the supposed “continuity” of the interstate commerce
and where items “come to rest.” Concepts such as these
proved highly vexing in the Commerce Clause context
when tried over a hundred years ago. I am concerned
they will fare no better here, leading to perplexing and
costly factual inquiries that in turn create uncertainty
as to whether a dispute is arbitrable. That is contrary
to the FAA’s objective that the intended efficiencies of
arbitration should not be overwhelmed by the inefficiency of litigation over whether a dispute is arbitrable.

38a
I respectfully dissent because I would have held
that the district court erred in denying Amazon’s motion to compel arbitration.
I
A
It is helpful to begin by considering the § 1 exemption for transportation workers in the context of the
FAA as a whole. Enacted in 1925, the FAA “seeks
broadly to overcome judicial hostility to arbitration
agreements.” Circuit City Stores, Inc. v. Adams, 532
U.S. 105, 118 (2001) (quoting Allied-Bruce Terminix
Cos., Inc. v. Dobson, 513 U.S. 265, 272 (1995)). Section
2 is the “primary substantive provision” of the Act.
AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 339
(2011) (quoting Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 24 (1983)). Section 2 provides
in relevant part:
A written provision in any maritime transaction or a contract evidencing a transaction involving commerce to settle by arbitration a
controversy thereafter arising out of such contract or transaction . . . shall be valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the
revocation of any contract.
9 U.S.C. § 2. This provision “establishes ‘a liberal federal policy favoring arbitration agreements.’ ” Epic
Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1621 (2018) (quoting Moses H. Cone Mem’l Hosp., 460 U.S. at 24).

39a
Section 1 creates a limited exemption to § 2. Under
§ 1, the FAA does not apply to “contracts of employment of seamen, railroad employees, or any other class
of workers engaged in foreign or interstate commerce.”
The Supreme Court’s decision in Circuit City
Stores, Inc. v. Adams, 532 U.S. 105 (2001), addressed
the relationship between these two provisions. In Circuit City, our court had held that § 1 exempted from
the FAA “all contracts of employment.” Id. at 109. The
Supreme Court disagreed, holding that § 1 “exempts
from the FAA only contracts of employment of transportation workers.” Id. at 119. I will discuss Circuit
City’s specific reasoning as I work through my analysis. But the point to emphasize up front is that based
on the FAA’s “plain meaning” and historical considerations, the Supreme Court in Circuit City confirmed
what the language and structure of the FAA connotes,
namely, that § 2 must be given an “expansive reading,”
whereas the § 1 transportation worker exemption
should “be afforded a narrow construction” and a “precise reading.” Id. at 113, 118–19.
Raef Lawson, the named plaintiff at issue here,
signed up to work as a local delivery provider for Amazon through the Amazon Flex (AmFlex) app. AmFlex
operates in select cities in the United States. AmFlex
workers deliver items for Amazon and local merchants
using their personal vehicles, bicycles, or public transportation. Lawson’s agreement with Amazon contained an arbitration clause. Lawson could have opted
out of arbitration by sending an email to Amazon, as
other AmFlex workers did. But Lawson did not do this.

40a
Instead, he now argues he may bring his wage-related
claims against Amazon in court on the theory that he
is exempt from the FAA altogether under § 1.
The majority asserts in passing that “AmFlex delivery providers occasionally cross state lines to make
deliveries.” Maj. Op. 6. But the majority opinion does
not turn on this. And the record contains only one example of such interstate delivery work, consisting of a
single AmFlex delivery provider who worked in the
“New York City area” and once delivered a package
from Brooklyn to New Jersey. Plaintiffs do not allege
that either Lawson or the typical AmFlex delivery provider crosses state lines when making deliveries. As a
“class of workers,” AmFlex providers thus do not move
between States in the course of their duties.
Instead, the majority holds that AmFlex workers
like Lawson are exempt from the FAA because “§ 1 exempts transportation workers who are engaged in the
movement of goods in interstate commerce, even if
they do not cross state lines.” Maj. Op. 20–21. In the
majority’s view, AmFlex workers fall within the § 1 exemption because “the Amazon packages they carry are
goods that remain in the stream of interstate commerce until they are delivered.” Id. at 21. Because
“AmFlex drivers’ transportation of goods wholly within
a state are still a part of a continuous interstate transportation,” the majority holds that “those drivers are
engaged in interstate commerce for § 1’s purposes.” Id.
at 22.

41a
In my respectful view, this is not the best reading
of the FAA. And it unfortunately creates difficult problems of application, as well as inequities among delivery workers who are similarly situated.1
B
To answer the central question in this case, the
place to start is the text of § 1. AmFlex workers are
not “seamen” or “railroad employees,” so if they are exempt from the FAA, it is because they fall within the
residual clause of “any other class of workers engaged
in foreign or interstate commerce.” There are three

1

The majority also affirms the district court’s determination
that because the FAA does not apply, the entire arbitration provision in the parties’ contract is invalid. Maj. Op. 31–33. Because
I conclude the FAA does apply, I do not discuss this secondary
issue in detail, except to note that to my mind, the district court’s
conclusion was premature. I do not believe the district court or
the majority provide a sufficient basis for concluding that the parties would have scrapped their agreement to arbitrate altogether
if they knew the FAA could not apply (state law could have governed the arbitration provision to which the parties clearly
agreed). I would have remanded for further proceedings on this
issue had I determined the FAA did not apply. In concluding otherwise, Maj. Op. 32 n.11, the majority parts from the First Circuit
on this point. In Waithaka v. Amazon.com, Inc., — F.3d —, 2020
WL 4034997, at *11 (1st Cir. 2020), and after holding that the
FAA did not apply to a similar contractual provision, the court
analyzed whether arbitration could “still be compelled pursuant
to state law.” Id. Although Waithaka ultimately held it could not,
the majority does not engage in such an analysis and instead concludes “there is no law that governs the arbitration provision.”
Maj. Op. 32.

42a
basic options for how to interpret the residual clause
in the case of delivery workers:
•

Option 1: The residual clause covers any delivery person transporting anything between
any two points. By this theory, because any
delivery has some connection to interstate
commerce, itself a broad concept under modern Commerce Clause doctrine, see Gonzales
v. Raich, 545 U.S. 1 (2005); Wickard v. Filburn,
317 U.S. 111 (1942), it is fair to treat anyone
making deliveries as “engaged in” interstate
commerce. Even when a delivery is purely intrastate, that delivery must inevitably have
an interstate nexus.

•

Option 2: The residual clause does not require
delivery workers to cross state lines in the
course of their deliveries, but it also does not
cover absolutely anyone who delivers anything (Option 1 above). Instead, it covers only
certain intrastate delivery workers depending
upon some other factors we identify, such as
the nature of the company they work for, the
nature of the goods that are transported,
and/or whether the goods are delivered as
part of a “continuous” interstate transportation. The majority follows Option 2.

•

Option 3: Delivery persons are a “class of
workers engaged in foreign or interstate commerce” if the class of workers crosses state or
international lines in the course of their deliveries. This is Amazon’s approach.

43a
Which of these three options is the best reading of the
statute?
We can begin by eliminating Option 1, because it
faces serious resistance from Supreme Court precedent. Again, Option 1 would treat every delivery person as part of a “class of workers engaged in foreign or
interstate commerce.” This would seemingly include,
to give examples nearer to the time of the FAA’s enactment, a newspaper boy who delivers the evening post
around his neighborhood, or the local milkman. The
Supreme Court’s decision in Circuit City confirms this
broad reading of the residual clause is untenable. It is
important to see why.
First, in holding that not all employment contracts
fall within the § 1 exemption, Circuit City relied heavily on the difference between the statutory phrases “engaged in foreign or interstate commerce” (the § 1
exemption) and “involving commerce” (the broad § 2
FAA coverage provision). The Supreme Court explained that as a general matter, “Congress uses different modifiers to the word ‘commerce’ in the design and
enactment of its statutes.” Circuit City, 532 U.S. at
115. These different modifiers allow Congress to calibrate the reach of its legislation. Id.
According to Circuit City, “considering the usual
meaning of the word ‘involving,’ and the pro-arbitration
purposes of the FAA,” the phrase “involving commerce”
in § 2 “ ‘signals an intent to exercise Congress’ commerce power to the full.’ ” Id. at 115 (quoting AlliedBruce, 513 U.S. at 277). Section 1, however, is different.

44a
“Unlike” the phrase “involving commerce,” “the specific
phrase ‘engaged in commerce’ [is] understood to have
a more limited reach.” Id. at 115–16 (citing Jones v.
United States, 529 U.S. 848, 855 (2000); Allied-Bruce,
513 U.S. at 273; United States v. Am. Bldg. Maint. Indus., 422 U.S. 271, 279–80 (1975)).
It was on this basis that Circuit City concluded
that “[t]he plain meaning of the words ‘engaged in commerce’ is narrower than the more open-ended formulations ‘affecting commerce’ and ‘involving commerce.’ ”
Id. at 118. The premise of Option 1 above is that “engaged in foreign or interstate commerce” should cover
any delivery person because at some level, every delivered good has an interstate nexus. Option 1 encounters significant difficulty in the face of Circuit City
because unlike the modifier “involving,” “engaged in”
does not signal Congress’ intent to regulate to the fullest extent of the Commerce Clause. Id. at 115–16, 118.
Second, Option 1 runs headlong into Circuit City’s
approach to the residual clause in § 1. Circuit City explained that because “the residual phrase” “any other
class of workers engaged in foreign or interstate commerce” “follow[s] in the same sentence[ ] [an] explicit
reference to ‘seamen’ and ‘railroad employees,’ ” “[t]he
wording of § 1 calls for the application of the maxim
ejusdem generis.” Id. at 114. Under that venerable
canon, which reflects how language is commonly used,
“[w]here general words follow specific words in a statutory enumeration, the general words are construed to
embrace only objects similar in nature to those objects
enumerated by the preceding specific words.” Id. at

45a
114–15 (alteration in original) (quoting 2A N. Singer,
Sutherland on Statutes and Statutory Construction
§ 47.17 (1991)); see also Scalia & Garner, Reading Law:
The Interpretation of Legal Texts 199 (2012).
Based on this “rule of construction,” Circuit City
explained that “the residual clause should be read to
give effect to the terms ‘seamen’ and ‘railroad employees,’ and should itself be controlled and defined by reference to the enumerated categories of workers which
are recited just before it.” 532 U.S. at 115. As noted
above, the issue in Circuit City was whether the residual clause should cover any employment contract. Id.
at 109. The answer was “no” because “[c]onstruing the
residual phrase to exclude all employment contracts
fails to give independent effect to the statute’s enumeration of the specific categories of workers which precedes it.” Id. at 114. The problem, in other words, was
that “there would be no need for Congress to use the
phrases ‘seamen’ and ‘railroad employees’ if those
same classes of workers were subsumed within the
meaning of the ‘engaged in . . . commerce’ residual
clause.” Id.
We can now see the second reason why the broad
Option 1 above is, at the very least, in serious tension
with Circuit City. As in Circuit City, if the residual
clause covered anyone transporting anything over any
distance, it is unclear why Congress would have specifically called out “seamen” or “railroad employees” in
the statute. At the very least, the basis for the more
stilted language in § 1 would be much more difficult to

46a
understand if the residual clause covered anyone
transporting anything between any two locations.
C
So what is the right answer here? The majority
opinion is explicit that it is not purporting to adopt Option 1. It makes clear, for example, that delivery persons who deliver food (through services like Doordash
and Postmates) do not fall within the § 1 exemption.
Maj. Op. 23–25. Instead, in holding that § 1 covers intrastate delivery workers who do not cross state lines
in their deliveries but who transport packages that
have previously traveled from out of state, the majority
identifies certain features of AmFlex workers that supposedly bring them within § 1, yet render them different from just any delivery person. This is Option 2 in
my typology above.
In later sections, I discuss the problems with the
majority’s interpretation. In this section, I explain
why I think Amazon’s interpretation (Option 3 above)
is the most supportable one under the text of the FAA.
Though the statute does not clearly answer the question before us, the language of § 1 and the problems
with the majority’s alternative interpretation lead me
to conclude that Amazon’s reading is the most justified.
Once again, the statute provides that “nothing
herein contained shall apply to contracts of employment of seamen, railroad employees, or any other class
of workers engaged in foreign or interstate commerce.”
9 U.S.C. § 1. In the context of the FAA in particular,

47a
the Supreme Court has instructed that it is “a fundamental canon of statutory construction that words generally should be interpreted as taking their ordinary
meaning at the time Congress enacted the statute.”
New Prime Inc. v. Oliveira, 139 S. Ct. 532, 539 (2019)
(quotation marks and alterations omitted). And in discerning this ordinary meaning, courts may consider
dictionary definitions from the relevant time. Id.
As the majority agrees, Maj. Op. 11, dictionaries
from the period when Congress enacted the FAA defined “engaged” as “[o]ccupied” or “employed.” Engaged, Webster’s New International Dictionary 725
(1st ed. 1909); see also Engaged, Webster’s Collegiate
Dictionary 333 (3d ed. 1919) (same); Engagement,
Black’s Law Dictionary (2d ed. 1910) (defining “engagement” as “[a] contract” or “obligation”). “Interstate
commerce,” meanwhile, was defined as “[t]raffic, intercourse, commercial trading, or the transportation of
persons or property between or among the several
states of the Union, or from or between points in one
state and points in another state.” Interstate Commerce, Black’s Law Dictionary (2d ed. 1910); see also
Interstate Commerce, Black’s Law Dictionary (3d ed.
1933) (same).
Putting these definitions together most reasonably indicates that the § 1 exemption for a class of workers “engaged in . . . interstate commerce” applies to
workers “[o]ccupied” or “employed” in the “transportation of . . . property . . . between points in one state and
points in another state.” Engaged, Webster’s New International Dictionary 725 (1st ed. 1909); Interstate

48a
Commerce, Black’s Law Dictionary (2d ed. 1910). In
other words, a person who is “engaged in . . . interstate
commerce” is one who is employed to do the thing that
is the subject of the engagement, here “foreign or interstate commerce.” With its focus on what workers are
“employed” or “occupied” in, the statute thus most
probably requires us to examine the work that the
workers as a “class” perform.
At this point, we encounter a very reasonable disagreement between the parties. Amazon says that the
work AmFlex delivery persons are “engaged in” is local
delivery services. Plaintiff, by contrast, argues that the
relevant work is the “last leg” intrastate delivery of
packages that have previously traveled from out of
state. Both are fair characterizations of work that AmFlex workers do. But I think Amazon’s characterization is the better fit under this statute.
Section 1 is focused on whether the “class of workers” is “engaged in foreign or interstate commerce.” As
a matter of common parlance, and remembering Circuit City’s guidance on the narrowness of “engaged in,”
a “class” of delivery workers would more commonly
“engage in” (i.e., be employed in) “interstate commerce”
by transporting goods across state lines. See Wallace
v. Grubhub Holdings, Inc., — F.3d —, 2020 WL
4463062, at *3 (7th Cir. 2020) (“[T]o fall within the exemption, the workers must be connected not simply to
the goods, but to the act of moving those goods across
state or national borders.”). Plaintiff ’s characterization of AmFlex workers’ “engagement” as workers delivering goods from out of state loses sight of the fact

49a
that the out-of-state nature of the goods is irrelevant
to the actual work the AmFlex workers perform. While
no one doubts that Amazon is of course engaged in interstate commerce (if that were the only question this
would be a very easy case), the interstate provenance
of Amazon packages does not affect the actual work
that local AmFlex workers do. See id. (explaining that
§ 1 turns on “what the worker does” and not “where the
goods have been”).
Moreover, and as discussed in greater detail below,
AmFlex workers do not just deliver packages. They
also deliver groceries and restaurant meals from local
businesses. Further, AmFlex only operates in select
cities and AmFlex workers service only their local markets. All of this underscores that AmFlex workers are
most naturally characterized as local delivery persons
rather than “interstate” workers.
We can see how plaintiff ’s (and the majority’s) interpretation of the FAA is less in accord with common
language usage by applying their same interpretation
to “foreign commerce.” See 9 U.S.C. § 1 (“any other
class of workers engaged in foreign or interstate commerce”) (emphasis added). Imagine someone orders a
coffee grinder through Amazon’s website. The coffee
grinder is manufactured in China, travels across the
Pacific Ocean on a container ship, and arrives at the
Port of Long Beach. A truck driver then hauls it fifty
miles north to an Amazon warehouse in the San Fernando Valley. Then an AmFlex worker picks it up from
the warehouse and delivers it by bicycle to an apartment a few miles away.

50a
Would we say that this AmFlex worker is “engaged
in foreign commerce”? I doubt it. But by the reasoning
of the majority opinion, the answer must be yes. Just
as AmFlex workers carry “goods that remain in the
stream of interstate commerce until they are delivered,” Maj. Op. 21 (emphasis added), the same would
need to be true of goods that traveled in foreign commerce as well. 9 U.S.C. § 1. In short, § 1’s use of the
modifier “engaged in” favors Amazon over plaintiff.
The majority justifies its interpretation by saying that
AmFlex drivers are “a part of a continuous interstate
transportation.” Maj. Op. 22. But that is not the language the statute uses.2
The statute’s references to “seamen” and “railroad
employees” support Amazon as well, at least more than
they do the plaintiff. Neither of these classes of
2

It is also not enough for the majority to rely on a dictionary
definition of the word “commerce” and conclude that an AmFlex
worker is “not ‘engaged in commerce’ any less than a worker
tasked with delivering goods between states.” Maj. Op. 12. No
one doubts that AmFlex workers are “engaged in commerce.” But
the statutory text refers to a “class of workers engaged in foreign
or interstate commerce.” In response, the majority points out that
the FAA defines “commerce” to include foreign or interstate commerce. Maj. Op. 19 (citing 9 U.S.C. § 1). And the majority thus
“see[s] no way to meaningfully distinguish between the word
‘commerce’ used in § 2”—in the phrase “involving commerce”—
and “the ‘foreign or interstate commerce’ referenced in § 1.” Id.
This is all true enough. But it only confirms, as I discussed above,
that what distinguishes “engaged in foreign or interstate commerce” in § 1, and “involving commerce” in § 2, are the modifiers
“engaged in” and “involving.” And that is the distinction the Supreme Court identified in Circuit City as supporting a narrow construction of § 1. See 532 U.S. at 115.

51a
workers is defined in the statute with reference to the
provenance of the goods (or people) they transport. Instead, the FAA casts them at a high level of generality,
referring to the broad type of work they perform. Amazon’s characterization of AmFlex workers’ “engagement” is thus more consistent with the way the statute
otherwise treats the “class[es] of workers” that are specifically enumerated.
In addition, and as noted above, Circuit City explained that “the residual clause should be read to give
effect to the terms ‘seamen’ and ‘railroad employees’
and should itself be controlled and defined by reference
to the enumerated categories of workers which are recited just before it.” 532 U.S. at 115. With a residual
clause that applies to workers “engaged in foreign or
interstate commerce,” it is more appropriate to construe “seamen” and “railroad employees” as persons
who operate in a cross-boundary capacity. The terms
“seamen” and “railroad employees” are not only capable of that reading, such workers commonly (if not prototypically) do “engage in foreign or interstate
commerce” in that manner. See Scalia & Garner, Reading Law 208 (2012) (using ejusdem generis, courts
“[c]onsider the listed elements, as well as the broad
term at the end, and ask what category would come
into the reasonable person’s mind”). Indeed, when it
comes to the transportation of goods in particular,
which is what AmFlex providers deliver, “seamen” and
“railroad employees” traditionally operate across international and state boundaries (with a seaman more
prone to foreign commerce and a railroad employee

52a
more likely to be engaged in interstate commerce, a
parallelism that is in fact reflected in the text of § 1).
I recognize that not every “seaman” or “railroad
employee” would necessarily be “engaged in foreign or
interstate commerce.” But that only goes to show that
Congress in specifically exempting these particular
“class[es] of workers” wanted to cover anyone who
could meet that description. It does not change how
we approach the meaning of the residual clause. We
can always come up with examples that fit a statutory
term in isolation but that largely defy its most common
understanding in the context of the statutory scheme
as a whole. Imagine a statute that said it was unlawful
to bring any “knives, daggers, swords, or any other similar object onto an airplane.” As a category, this most
reasonably refers to objects that are dangerous because they are sharp. If someone brought a dull blade
onto an airplane, it would likely still be treated as a
“knife” and the statute would cover it. But that does
not mean the residual clause would encompass things
that are not traditionally sharp.
The linguistic intuition behind ejusdem generis is
that terms in a statutory list that culminates in a residual clause should be construed in their most natural, categorical manners, in a way that reasonably
reflects the boundaries the residual clause creates.
E.g., Yates v. United States, 574 U.S. 528, 545–46
(2015); CSX Transp., Inc. v Ala. Dep’t of Revenue,
562 U.S. 277, 295 (2011). The statutory text in the
FAA supports this approach because it refers to workers by their “class,” reflecting the same paradigmatic

53a
approach as ejusdem generis itself. In this case, if the
statute excluded “seamen, railroad employees, and local delivery persons,” it seems clear that one is quite a
bit less like the others.
My interpretation of the FAA aligns with the recent decision in Wallace v. Grubhub Holdings, Inc., —
F.3d —, 2020 WL 4463062 (7th Cir. 2020), in which the
Seventh Circuit held that § 1 did not cover Grubhub
delivery drivers. There, the Seventh Circuit rejected
the plaintiffs’ theory that they came within the § 1 exemption because “they carry goods that have moved
across state and even national lines.” Id. at *3. The
Seventh Circuit held that “to fall within the exemption,
the workers must be connected not simply to the goods,
but to the act of moving those goods across state or national borders.” Id. (emphasis added); see also id. at *2
(“[W]e consider whether the interstate movement of
goods is a central part of the class members’ job description.”); id. at *3 (“To show that they fall within
this exception, the plaintiffs had to demonstrate that
the interstate movement of goods is a central part of
the job description of the class of workers to which they
belong.”).
Finally, Amazon’s reading also yields an important
benefit: it is relatively easy to apply. All we need to
know is the extent to which delivery workers cross
state or international lines in the course of their deliveries. The Supreme Court has cautioned against introducing “complexity and uncertainty [into] the
construction of § 1” because it “undermin[es] the FAA’s
proarbitration purposes,” “ ‘breeding litigation from a

54a
statute that seeks to avoid it.’ ” Circuit City, 532 U.S.
at 123 (quoting Allied-Bruce, 513 U.S. at 275). Amazon’s reading of the FAA is much more consistent with
this objective. The majority’s interpretation, by contrast, foments substantial problems of practical application and produces inequities among similarly
situated workers, issues I discuss below.
II
A
But what about the majority’s differing interpretation? Again, the majority opinion rejects the Option
1 approach that all delivery workers are exempted
from the FAA because the majority insists that persons
who deliver food for restaurants through Doordash
and similar services fall outside § 1. Maj. Op. 23–25.
Instead the majority goes with Option 2: some local delivery providers working intrastate are within § 1, and
we can discern which ones through application of factors we identify. In this case, the distinguishing features the majority identifies seem to be as follows:
•

AmFlex workers work for Amazon: AmFlex
workers are affiliated with Amazon, a large
company devoted to working with its partners
to transport items from all over the world that
its customers purchase. Maj. Op. 21. Unlike
restaurant delivery workers, “AmFlex workers complete the delivery of goods that Amazon ships across state lines and for which
Amazon hires AmFlex workers to complete
the delivery.” Id. at 24.

55a
•

The interstate transportation is “continuous,”
and the transported packages do not “come to
rest”: “AmFlex drivers’ transportation of
goods wholly within a state are still a part of
a continuous interstate transportation.” Id. at
22–23. “The packages are not held at warehouses for later sales to local retailers.” Id. at
23. “Amazon packages do not ‘come to rest’ at
Amazon warehouses, and thus the interstate
transactions do not conclude at those warehouses.” Id. at 23.

•

The packaged goods are not transformed into
something else: restaurant delivery workers
are different because “prepared meals from local restaurants are not a type of good that [is]
indisputably part of the stream of commerce.”
Id. at 24 (quotations omitted). This presumably would be the case because “[i]ngredients
contained in the food that [is] ultimately delivered from restaurants ended their interstate journey when they arrived at the
restaurant where they were used to prepare
meals.” Levin v. Caviar, Inc., 146 F. Supp. 3d
1146, 1154 (N.D. Cal. 2015); see also Maj. Op.
23–25 (citing Levin in explaining why Postmates and Doordash drivers do not fall within
§ 1).

•

The nature of the transaction between Amazon and its own customers: “The interstate
transactions between Amazon and the customer do not conclude until the packages
reach their intended destinations.” Id. at 23.

56a
If we were drafting the FAA anew, some of these
factors may well reflect reasonable bases for distinguishing AmFlex workers from other delivery persons.
But the problem I have with the majority’s analysis is
that the factors it identifies have no apparent basis in
the statute, which focuses on the work that a “class of
workers” performs. See Wallace, 2020 WL 4463062, at
*3. Section 1 exempts “contracts of employment of seamen, railroad employees, or any other class of workers
engaged in foreign or interstate commerce.” 9 U.S.C.
§ 1. Its coverage does not depend on the company for
whom the delivery person works. The statute likewise
does not vary in application depending on the nature
of the transaction between the underlying buyer and
seller, i.e., whether a good is delivered as part of a continuous journey from seller to customer, or has a retail
stop in between, or whether it is a consumer transaction at all. Nor does the statutory text embrace a distinction between goods that “come to rest” after further
transformation into something else.
The majority’s Option 2 approach creates significant problems of workability and fairness, as I will detail below in Section III. But from a pure statutory
interpretation perspective, what is important to see is
that because the majority’s limiting factors are not
based in the statutory text (and are certainly not required by it), one can come up with alternative “limiting” factors that are not limiting at all, but that still
have an equally plausible purchase on the language
Congress drafted.

57a
A good example is retail sales. The majority deems
it significant that “[t]he packages are not held at warehouses for later sales to local retailers,” but are part of
a “continuous” delivery from Amazon to consumers.
Maj. Op. 22–23. But if the statutory text “support[s]
the conclusion that transportation workers need not
cross state lines to be considered ‘engaged in foreign or
interstate commerce’ pursuant to § 1,” as the majority
holds, id. at 11, what difference does it make if a delivery driver picks up a good from an Amazon warehouse
or from a separate retailer? Section 1 focuses on the
worker. And in both cases, the worker is transporting
to a consumer a good that originated out of state. Indeed, the record indicates that Amazon “provides fulfillment services for third-party sellers who store
inventory in Amazon Fulfillment Centers and sell
their products on Amazon’s websites.” It is unclear
how the interstate transaction is “continuous” in these
circumstances when Amazon itself is functioning as a
retailer that keeps an “inventory” at its warehouses.
Another example is the majority’s focus on the
“package” that the end-use customer ordered as the
relevant unit for analysis under the FAA. In the majority’s view, the package does not “come to rest” at an
Amazon warehouse because it is only temporarily
housed there, untransformed, until an AmFlex worker
picks it up. Id. at 23. By contrast, the majority suggests that ingredients for meals that restaurants prepare apparently do “come to rest” because the
“prepared meals” themselves are not “indisputably

58a
part of the stream of commerce.” Id. at 24 (quotations
omitted).
The majority opinion’s line-drawing depends on its
selection of the relevant “unit” for commerce purposes.
But once again, the statute does not tell us how to
make that selection either. Imagine a tomato is transported from out of state to a restaurant and then used
to make sauce for a pizza. Why is the later intrastate
delivery of the pizza not also recognized as the final leg
of an interstate delivery of the tomato? The customer
wants a pizza of which the sauce is an indispensable
ingredient and but for which the pizza would not be
ordered. For commerce purposes, why focus on the local preparation of the completed pizza instead of recognizing that as a sum of its parts, the pizza is the
product of goods that moved in interstate commerce?
The text of the FAA does not help us choose between
these various options.
Or we could look at it another way: imagine an
Amazon customer orders a jar of pizza sauce through
Amazon’s website. See https://www.amazon.com/s?k=
pizza+sauce&ref=nb_sb_noss_2 (selection of pizza
sauces available on Amazon) (last visited August 11,
2020). If the relevant “interstate commerce” unit under the FAA were pallets of jars that are shipped to an
Amazon warehouse and not the individual jars of
sauce, then why doesn’t the jar of sauce “come to rest”
at the warehouse once labor is applied to it by removing the jar from the larger crate in which it was transported interstate?

59a
The problems become only more difficult when we
consider that the customer could order the same exact
thing, wholly untransformed, from Amazon and the
pizza shop. If Cherry Coke is manufactured out of
state, what difference does it make from the perspective of the “class of workers” if the customer orders
cans of Cherry Coke from the pizza shop or Amazon?
See https://www.amazon.com/s?k=cherry+coke&ref=nb_
sb_noss_2 (selection of Cherry Coke options on Amazon website) (last visited August 11, 2020).
The point here is that if one broadens or narrows
the lenses of the limiting factors that the majority
identifies as part of its Option 2 approach, one can
treat either more or fewer delivery workers as falling
within § 1. The statutory text supports none of this
line-drawing any more than any other, which is quite
afield of the statute’s focus on whether the work that
the “class of workers” performs renders the “class” “engaged in foreign or interstate commerce.” 9 U.S.C. § 1.
What this means is that in principle, the majority’s Option 2 is no different than Option 1. But for the
majority’s own selection of factors it deems relevant to
“interstate commerce,” the majority’s approach equally
permits any delivery person to fall within § 1. And that
is the expansive regime that faces the greatest resistance under the text of § 1, as construed in Circuit
City. See Wallace, 2020 WL 4463062, at *3 (rejecting
interpretation of § 1 that “would sweep in numerous
categories of workers whose occupations have nothing
to do with interstate transport”). It would also stretch
the supposedly “narrow” and “precise” § 1 exemption

60a
considerably, contrary to the FAA’s overarching preference for arbitration. Circuit City, 532 U.S. at 118, 119.
B
To reach its contrary interpretation of the FAA,
the majority opinion spends considerable effort examining language in other statutes: the Federal Employers’ Liability Act (FELA), the Clayton Act, and the
Robinson-Patman Act. Maj. Op. 15–19. I do not think
these other statutes can overcome the more natural
import of the FAA’s text, structure, and purpose.
The Supreme Court has cautioned that “[t]he
phrase ‘in commerce’ does not, of course, necessarily
have a uniform meaning whenever used by Congress.”
Am Bldg., 422 U.S. at 277. Circuit City made this same
point about undue reliance on other “statutory jurisdictional formulations” when interpreting the FAA.
See 532 U.S. at 118 (citing Am. Bldg., 422 U.S. at 277).
Instead, Circuit City instructed that courts must “construe the ‘engaged in commerce’ language in the FAA
with reference to the statutory context in which it is
found and in a manner consistent with the FAA’s purpose.” Id. It was that “statutory context” and “purpose”
that the Supreme Court held “compel[led]” the conclusion “that the § 1 exclusion provision be afforded a narrow construction.” Id.
FELA and the Clayton and Robinson-Patman Acts
do not share the FAA’s text, “context,” or “purpose.”
The text of FELA (as it existed at the time of the FAA’s
enactment) provided that “every common carrier by

61a
railroad while engaging in commerce between any of
the several States . . . shall be liable in damages to any
person suffering injury while he is employed by such
carrier in such commerce.” 45 U.S.C. § 51 (1908). This
statute is oriented more around the work of the “common carrier.” And it lacks the FAA’s specific structure
and phrasing, in particular the references to “seamen”
and “railroad employees” that give the § 1 residual
clause some of its meaning. See Circuit City, 532 U.S.
at 115. It is therefore hard to understand the First
Circuit’s conclusion, on which the majority relies, that
the language of FELA and the FAA are “nearly identical.” Waithaka v. Amazon.com, Inc., — F.3d —, 2020
WL 4034997, at *6 (1st Cir. 2020). Indeed, the reference to “commerce” in both FELA and the antitrust
statutes does not appear in a residual clause at all,
much less in an exception to a general coverage provision. See 15 U.S.C. § 13(a) (Robinson-Patman Act); 15
U.S.C. §§ 14, 18 (Clayton Act); 45 U.S.C. § 51 (Federal
Employers’ Liability Act).
The identified purposes of these other statutes are
also not comparable to the FAA’s recognized objectives.
FELA is a “broad remedial statute” that protects injured railroad workers. Atchison, Topeka & Santa Fe
Ry. Co. v. Buell, 480 U.S. 557, 562 (1987). For FELA,
the Supreme Court has thus “adopted a ‘standard of
liberal construction in order to accomplish [Congress’]
objects.’ ” Id. (alteration in original) (quoting Urie v.
Thompson, 337 U.S. 163, 180 (1949)). FELA is therefore “not to be narrowed by refined reasoning” but “is
to be construed liberally to fulfill the purposes for

62a
which it was enacted.” Jamison v. Encarnacion, 281
U.S. 635, 640 (1930), superseded by statute on other
grounds as recognized in McDermott Int’l, Inc. v. Wilander, 498 U.S. 337, 348 (1991).
The majority relies on the First Circuit’s unsupported statement that “there is no indication that the
remedial purpose of the FELA affected the Supreme
Court’s conclusion” about which workers FELA covered. Maj. Op. 15 n.2 (quoting Waithaka, 2020 WL
4034997, at *8). But when the Supreme Court generally assigns a “liberal” construction to a statute based
on its perceived “broad remedial” purposes, as it did in
FELA, one would expect that interpretation to carry
throughout the statute, and that reflects the import of
some of the FELA cases the majority cites. The more
important observation from the FELA cases is that
there is no indication, within an otherwise “broad remedial” statute, that the Supreme Court gave FELA’s
most closely analogous statutory language a “narrow”
and “precise” construction, as we are required to do for
the FAA § 1 exemption. Circuit City, 532 U.S. at 118–
19.
I also respectfully disagree with the majority’s assertion that there is a “longstanding reliance on
[FELA] to interpret the FAA’s text.” Maj. Op. 28 n.9.
What the majority cites for this proposition is the First
Circuit’s very recent opinion in Waithaka and Tenney
Eng’g, Inc. v. United Elec. Radio & Mach. Workers of
Am., 207 F.2d 450 (3d Cir. 1953), in which the Third
Circuit stated without explanation that Congress
“must have had” FELA “in mind” when drafting the

63a
FAA. Id. at 453. For its part, the Supreme Court has
never directed that the FAA be interpreted in light of
FELA. And if that were the “longstanding” law, current doctrine under the FAA would likely look completely different than it does today.
The context and identified purposes of the Clayton
and Robinson-Patman Acts are equally inapt. These
antitrust statutes likewise have entirely different objectives, such as thwarting monopolistic practices and
price discrimination (notably, the First Circuit in
Waithaka did not rely on them to the extent the majority does here). These antitrust regimes stand in contrast to § 1 of the FAA, which is a “narrow” and
“precise” exemption to Congress’s otherwise “expansive” § 2 coverage provision seeking to “overcome judicial hostility to arbitration agreements.” Circuit City,
532 U.S. at 118 (quoting Allied-Bruce, 513 U.S. at 272).
It is also not apparent that these other statutes
the majority cites even support the majority’s approach to the FAA. In the case of FELA, the majority
cites Shanks v. Delaware, Lackawanna & Western Railroad Co., 239 U.S. 556 (1916). Maj. Op. 15. But Shanks
held that a railroad employee was not engaged in interstate commerce, and thus not subject to FELA,
when he was injured while repairing a “heavy shop fixture” used to power equipment that serviced interstate
trains. Shanks, 239 U.S. at 558. Shanks relied on Illinois Central Railroad Co. v. Behrens, 233 U.S. 473
(1914), where the Supreme Court similarly held that
“a member of a crew attached to a switch engine [that]
operated exclusively within the city of New Orleans”

64a
was not engaged in interstate commerce, even though
the railroad company transported interstate freight
and the employee at the time of his death was about to
move train cars that were destined for interstate
transport. Id. at 476–78. All of this line drawing eventually created so “much confusion” that after decades
of difficulties, Congress to simplify matters just revised
FELA altogether. S. Pac. Co. v. Gileo, 351 U.S. 493, 497
(1956); Maj. Op. 15 n.2. This is not what we should
aspire to for the FAA.
Of course, neither the majority nor the First Circuit identified FELA cases from the relevant time period involving “last leg” delivery workers like those
here. The closest case from this period appears to have
been a Commerce Clause case, New York ex rel. Pennsylvania Railroad Co. v. Knight, 192 U.S. 21 (1904),
which cuts against the majority’s position. There, an
interstate railroad company operated a horse-drawn
cab business within New York City that transported its
passengers to and from their homes or hotels to a ferry
landing. Id. at 25. The railroad argued it was not subject to a state tax because the cab service was a part of
its overall interstate transportation. Id. The Supreme
Court disagreed and held that the local cab service was
not “engaged in interstate transportation” because it
was “exclusively rendered within the limits of the city.”
Id. at 26, 28. In reaching this conclusion, the Supreme
Court rejected the company’s alternative view and
asked, “If the cab service is interstate transportation,
are the drivers of the cabs . . . also engaged in interstate commerce? And where will the limit be placed?”

65a
Id. at 28. The majority tries to distinguish Knight as
relevant only for “taxation purposes,” Maj. Op. 22, but
why wouldn’t FELA cases then be relevant only for
FELA? The key point is that early cases involving the
Supreme Court’s struggles to capture the meaning of
interstate commerce in FELA and otherwise thus at
best point in different directions and make them uncertain guideposts for the scope of FAA § 1.
The cases the majority cites from the antitrust
context, Gulf Oil Corp. v. Copp Paving Co., 419 U.S. 186
(1974), and United States v. American Building
Maintenance Industries, 422 U.S. 271 (1975), also do
not move the needle. Maj. Op. 17–18 & n.3. The statutes at issue there did not focus on workers or their
work, but on defendants that are typically companies,
whose engagement with interstate commerce is therefore qualitatively different. See 15 U.S.C. §§ 13(a), 14,
18. When these antitrust cases discussed the “flow of
interstate commerce,” it was thus in the context of “a
corporation” that “must itself be directly engaged in
the production, distribution, or acquisition of goods or
services in interstate commerce Am. Bldg., 422 U.S. at
283 (citing Gulf Oil, 419 U.S. at 195). This is a seemingly broader definition of “engaged in” than even the
majority is willing to tolerate for § 1. See Maj. Op. 18
n.3. And it has no apparent alignment with the statute
before us, making its relevance to this case entirely unclear.
Even so, Gulf Oil held that “entirely intrastate
sales of asphaltic concrete” did not reflect corporate activity “engaged in” interstate commerce, even though

66a
the concrete was used “in the construction of interstate
highways” and sold to “interstate highway contractors.” 419 U.S. at 188, 196, 199. American Building
similarly held that the janitorial service company at
issue there was not “engaged in” interstate commerce.
422 U.S. at 283–84. In fact, and in language reminiscent of this case, American Building noted that “simply
supplying localized services to a corporation engaged
in interstate commerce” did not satisfy the applicable
“in commerce” requirement of the Clayton Act. Id. at
283.
I thus find it difficult to infer from antitrust cases
curbing the “in commerce” requirement a congressional intent to expand the FAA’s narrow exemption for
certain transportation workers. Indeed, Circuit City
relied on Gulf Oil and American Building in explaining why the phrase “engaged in foreign or interstate
commerce” should be construed narrowly. See Circuit
City, 532 U.S. at 117–18. It did not look to these cases
to interpret § 1 in the way the majority does.
C
Also overstated is the majority’s attempt to rely on
cases from other circuits and district courts. Maj. Op.
12–14. The majority states that its “reading of the
statutory text is reinforced by decisions of other circuits and our own that have applied the exemption.”
Maj. Op. 12. But aside from the recent decisions in
Waithaka and Wallace, no court of appeals has yet addressed issues comparable to the ones we decide

67a
today.3 The only Ninth Circuit case of any relevance is
Harden v. Roadway Package Systems, 249 F.3d 1137
(9th Cir. 2001), which held that the plaintiff, a delivery
driver, was “engaged in” interstate commerce and exempt from the FAA because he “contracted to deliver
packages throughout the United States, with connecting international service.” Id. at 1140 (quotations
omitted). We did not focus on whether the goods had
previously traveled in interstate commerce or whether
the company generally was engaged in interstate commerce, as the court does today. Maj. Op. 21, 26. And
AmFlex workers have not entered contracts containing
similar language.
The majority speculates that it is “more plausible”
that the driver in Harden “made last-mile deliveries
wholly within a given state,” Maj. Op. 27 n.8. But
nothing on the face of Harden supports this. And unsurprisingly, given its discussion of deliveries made
“throughout the United States, with connecting international service,” Harden has long been understood as
a case about interstate delivery workers. See e.g.,
Fuentes v. Rush Truck Ctrs. of Cal., Inc., 2019 WL
3240100, at *4 (C.D. Cal. March 11, 2019) (citing
Harden for the proposition that “[i]nterstate truck
3

While Wallace acknowledged that Waithaka was a “harder”
case, Wallace, 2020 WL 4463062, at *2, the reasoning of Wallace
is plainly inconsistent with both the majority opinion here and
Waithaka. Wallace made clear that § 1 does not turn on whether
the goods previously traveled in interstate commerce. See id. at
*3 (rejecting the theory that “the residual exemption is not so
much about what the worker does as about where the goods have
been”).

68a
drivers, directly responsible for transporting goods
across state lines, fall squarely in the category of transportation workers”); Veliz v. Cintas Corp., 2004 WL
2452851, at *5 (N.D. Cal. April 5, 2004) (citing Harden
for the proposition that “[t]he most obvious case where
a plaintiff falls under the FAA exemption is where the
plaintiff directly transports goods [ ] interstate, such as
[an] interstate truck driver whose primary function is
to deliver mailing packages from one state into another”).
The cases from other circuits that the majority relies on do not support its holding because they addressed other issues. Lenz v. Yellow Transportation,
Inc., 431 F.3d 348, 351 (8th Cir. 2005), Hill v. Rent-ACenter, Inc., 398 F.3d 1286, 1290 (11th Cir. 2005), and
Cole v. Burns International Security Services, 105 F.3d
1465, 1470–71 (D.C. Cir. 1997), all concerned the
threshold questions whether an employee was a transportation worker or whether § 1 was limited to transportation workers (which the Supreme Court later
answered “yes” in Circuit City).
The majority’s reliance on Palcko v. Airborne Express, Inc., 372 F.3d 588 (3d Cir. 2004), is similarly overstated. There, the Third Circuit held that a “direct
supervisor” of “drivers that transported packages” for
a company “engage[d] in intrastate, interstate, and international shipping” was covered by the § 1 exemption. Id. at 590, 594 n.2. In the Third Circuit’s view,
such a person was “so closely related [to interstate
commerce] as to be in practical effect part of it.” Id. at
593 (quotations and brackets omitted).

69a
In Palcko, the Third Circuit apparently suggested
that § 1 applies to workers who “engage in interstate
commerce” or “in work so closely related thereto.” Id.
(quotations omitted); see also Singh v. Uber Techs. Inc.,
939 F.3d 210, 214 (3d Cir. 2019) (“[T]he residual clause
of § 1 may extend to a class of transportation workers
who transport passengers, so long as they are engaged
in interstate commerce or in work so closely related
thereto as to be in practical effect part of it.”); Maj. Op.
13 n.1. That is just an expansion of the actual language in § 1, and it lacks justification for that reason.
Indeed, this approach is most akin to my Option 1.
But even so, properly considered, Palcko stands
only for the proposition that to fall within the § 1 residual clause, crossing state or international lines may
not be required for certain classes of workers that supervise interstate transportation. See Palcko, 372 F.3d
at 594 n.2. That is a very different question than
whether local delivery drivers are exempt from the
FAA, based on whether and how their work renders
them a “class of workers engaged in” interstate commerce. That is a question on which Palcko sheds no
light.
Indeed, in a later case, the Third Circuit remanded
for further discovery on the question of whether Uber
drivers “engaged in” interstate commerce under § 1,
because the plaintiff had “place[d] the issue in dispute”
by “aver[ring] that he frequently transported passengers on the highway across state lines, between New
York and New Jersey.” Singh, 939 F.3d at 226 (emphasis added). The Third Circuit thus appears to have

70a
recognized that when it comes to workers who make
deliveries (of people or goods), and unlike the supervisor in Palcko, the analysis under § 1 turns on the extent to which the class of workers crosses state lines in
the course of their deliveries. That is the approach I
would have followed here as to AmFlex workers, who
are more analogous to Uber drivers than to the supervisor in Palcko.
The Seventh Circuit followed a similar approach
in International Brotherhood of Teamsters Local Union
No. 50 v. Kienstra Precast, LLC, 702 F.3d 954 (7th Cir.
2012). That case involved truck drivers at an Illinois
concrete company who argued they were exempt from
the FAA under § 1. Id. at 956. The Seventh Circuit
treated the case as turning on whether the “trucking
employees’ activities were strictly limited to three
counties in southern Illinois” or, instead, “whether the
truckers ever carried loads into Missouri or other
States.” Id. Because discovery demonstrated that
these workers “cross[ed] state lines” in a sufficient
amount, they fell within § 1. Id. at 957.
Finally, like its circuit court authority, the majority’s reliance on district court decisions is also overstated. While the majority claims that district courts
“have also understood § 1 not to require that a worker
cross state lines,” Maj. Op. 13, many other district
courts have held the opposite in cases involving delivery workers who transported goods, restaurant food,
and passengers. See Rogers v. Lyft, Inc., — F. Supp. 3d
—, 2020 WL 1684151, at *6 (N.D. Cal. April 7, 2020);
Grice v. Uber Techs., Inc., 2020 WL 497487, at *6 (C.D.

71a
Cal. Jan. 7, 2020); Magana v. DoorDash, Inc., 343
F. Supp. 3d 891, 899 (N.D. Cal. 2018); Bonner v. Mich.
Logistics Inc., 250 F. Supp. 3d 388, 397 (D. Ariz. 2017);
Vargas v. Delivery Outsourcing, LLC, 2016 WL 946112,
at *4–5 (N.D. Cal. Mar. 14, 2016); Levin, 146 F. Supp.
3d at 1152. The majority thus errs in suggesting that
the weight of authority is on its side.
III
Finally, the majority’s approach suffers from serious problems of practical application, while treating
similarly situated workers unequally. These are two
significant sets of downsides for an interpretation of
the FAA that is already not the best reading of the statutory text.
As to workability: Whereas Amazon’s approach requires a relatively straightforward inquiry into the extent to which AmFlex workers crossed state lines in
the course of their deliveries, the majority’s approach
requires examination into where shipped goods originated, whether an underlying transaction is “continuous,” and where items “come to rest.”
Demonstrating the extent to which shipped goods
originated out of state strikes me as a potentially difficult inquiry. Although one would assume AmFlex
workers are delivering at least some goods that came
to an Amazon warehouse from outside the States in
which they are located, I am not aware of evidence on
this issue, and the majority assumes the point. Maj.
Op. 21. The assumption seems plausible enough in the

72a
context of Amazon, but the rule the majority sets forth
will need to be applied to delivery workers for businesses other than Amazon, and those businesses may
be less integrated and less national in scope. Furniture stores or florists come to mind. Having extensive
discovery on where goods originated just to determine
arbitrability is contrary to the purpose of the FAA. See
Allied-Bruce, 513 U.S. at 275. Amazon’s approach may
require some discovery too, but that discovery will
likely be more contained and is at least based on the
FAA’s focus on the “class of workers.”
The need to determine, under the majority opinion, whether the interstate transaction was “continuous,” or whether the items “came to rest” earlier,
strikes me as even more problematic. The “come to
rest” doctrine has been sourced to A.L.A. Schechter
Poultry Corp. v. United States, 295 U.S. 495 (1935). See
Maj. Op. 23. In Schechter Poultry, the Supreme Court
held that the transactions at issue were not “in interstate commerce” because the goods had “come to a permanent rest” within New York and were “not destined
for transportation to other States.” 295 U.S. at 543. In
this respect, Schechter Poultry would seem to support
Amazon.
But the more fundamental point is that importing
a “come to rest” doctrine into the FAA is ill-advised.
Schechter Poultry was an exemplar of an earlier era in
which the Supreme Court made attempts to place limits on Congress’ power under the Commerce Clause
through doctrinal devices that sought to capture where
interstate commerce supposedly began and ended as

73a
part of assessing whether effects on interstate commerce were direct or indirect. See id. While perhaps
well-intentioned, this approach proved difficult to apply and was effectively abandoned. See, e.g., NLRB v.
Jones & Laughlin Steel Corp., 301 U.S. 1, 36–38 (1937);
see also United States v. Lopez, 514 U.S. 549, 555
(1995).
Resurrecting this approach now in the context of
the FAA’s transportation worker exemption is not justified. The difficulty lies in the fact that determining
whether an interstate transaction is “continuous,” or
where an item in transit “came to rest,” is more a matter of metaphysics than legal reasoning. If a tomato
was shipped out of state to the pizzeria, in what sense
did it truly “come to rest” there? What if the tomato
spent only 24 hours at the pizzeria before being made
into sauce, but Amazon held an item in inventory for
six months at an Amazon warehouse before an order
from a nearby customer was placed and an AmFlex
worker picked it up and delivered it? Is one chain of
events more “continuous” than the other? And if a good
is shipped from a manufacturer to a storefront retailer,
why does its “rest” begin at the retailer, while an Amazon-purchased good only “rests” once it gets to the consumer?
The record suggests that AmFlex workers sometimes pick up items from grocery stores or other local
merchants and deliver them to customers through Amazon Fresh or Prime Now, related Amazon services. Is
a grocery store more akin to a restaurant where food
items apparently “come to rest,” or a warehouse where

74a
they do not? Does it matter if a customer orders a prepackaged pound of Swiss cheese or a pound of Swiss
cheese sliced at the deli counter, where the cheese is
mixed with labor and transformed to some degree?4
The point is that these are all difficult inquiries
that have no right answer, at least according to the
tools available to lawyers and judges. Undertaking
such confounding inquiries in the context of the FAA is
particularly undesirable when the result will inevitably mean more complex civil litigation over the availability of a private dispute resolution mechanism that
is supposed to itself reduce costs. See Circuit City, 532
U.S. at 123; Allied-Bruce, 513 U.S. at 275.
As to fairness: In a § 1 exemption that is focused
on “class[es] of workers,” the majority’s approach produces the inequitable result that workers performing
the same work are subject to different legal regimes.
AmFlex delivery persons and food service delivery
workers from companies like Doordash both make local deliveries. But under the majority opinion, the former delivery workers are exempt from the FAA,
whereas the latter are not. See Maj. Op. 23–25. It is
hard to understand why that should be the case when
from the perspective of the local delivery person,
4

Even the plaintiff recognizes that AmFlex workers perform
“pick ups and deliveries from local merchants” through Amazon’s
Prime Now and Amazon Fresh services. Plaintiff thus suggests
this court “could limit its ruling to exclude the Amazon Fresh and
Prime Now services.” The majority opinion instead holds, without limitation, that “AmFlex delivery providers fall within the
[§ 1] exemption.” Maj. Op. 28.

75a
whether he is delivering goods from out of state is irrelevant to his work. See Wallace, 2020 WL 4463062,
at *3.
This inequity comes into sharper relief when considering that food service delivery workers drop off
items for restaurants that one could also order on Amazon. These items (like my earlier example of cans of
Cherry Coke) are not in any way transformed into
something else at the restaurant. But unlike his Doordash counterpart, the AmFlex driver who drops off the
Cherry Coke after retrieving it from an Amazon warehouse is not subject to arbitration under the majority
opinion. Local delivery drivers dropping off the exact
same item that originated out of state are thus subjected to very different legal regimes, for reasons that
have nothing to do with the on-the-ground work they
perform.
Indeed, and perhaps ironically, the record shows
that AmFlex workers themselves deliver restaurant orders. The contract at the center of this dispute instructs AmFlex workers to “use an insulated bag when
delivering restaurant orders” and to “not leave
chilled/frozen items unattended.” In the district court,
an AmFlex director submitted a declaration stating
that AmFlex workers “can deliver restaurant orders.”
Decl. of Piyush Lumba ¶ 9, Rittmann v. Amazon.com,
Inc., No. 2:16-cv-01554-JCC (W.D. Wash.), ECF No. 49.
And declarations from AmFlex delivery providers confirm they do so. See, e.g., Decl. of Michelle Prevette ¶ 9,
Rittmann v. Amazon.com, Inc., No. 2:16-cv-01554-JCC
(W.D. Wash.), ECF No. 54 (explaining she used

76a
“insulated bags for [her] work with Amazon” when
making “hot and cold food deliveries”); Decl. of Thyais
R.J. Meade ¶ 14, Rittmann v. Amazon.com, Inc., No.
2:16-cv-01554-JCC (W.D. Wash.), ECF No. 57 (“I have
had a time during a restaurant delivery where Amazon
dispatch contacted me (at first, with a canned message)
to let me know that the restaurant delivery was not
ready yet.”). This means that AmFlex workers are
treated differently than Doordash drivers even though
both deliver meals from local restaurants.
The inequities become even stranger when one
considers that delivery workers often work for multiple services, even at the same time (think of drivers
with both Uber and Lyft stickers on their windshields).
An AmFlex worker who also works for Doordash and
is doing the same basic work for both companies would
thus be subject to arbitration based on which company’s “hat” he is wearing.
Indeed, Lawson, the named plaintiff at issue here,
himself drove for Uber and Lyft and worked for food
delivery companies Postmates, Caviar, and Grubhub.
See Lawson v. Grubhub, Inc., 302 F. Supp. 3d 1071,
1073 (N.D. Cal. 2018). He worked for several of these
companies at the same time. Id. at 1074. Lawson was
able to file a lawsuit in federal court against Grubhub
because he opted out of his arbitration agreement with
that company. See id. at 1072. But under the majority’s opinion, had he not opted out, as a food delivery
person Lawson apparently would not have been covered by the § 1 transportation worker exemption and
could have been required to arbitrate his claim with

77a
Grubhub. Under the majority opinion, therefore, the
same person performing the same type of work at the
same time through the same means is required to arbitrate against some employers but not others. Suffice
to say, it is hard to locate such a regime in the language
Congress used in § 1.
*

*

*

I would have held that the district court erred in
denying Amazon’s motion to compel arbitration. I
therefore respectfully dissent.

78a
APPENDIX B
THE HONORABLE JOHN C. COUGHENOUR
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT SEATTLE
BERNADEAN RITTMANN,
et al.,
Plaintiffs,
v.

CASE NO.
C16-1554-JCC
ORDER
(Filed Apr. 23, 2019)

AMAZON.COM, INC., et al.,
Defendants.
This matter comes before the Court on Defendants’ motion to compel arbitration (Dkt. No. 36). Having thoroughly considered the parties’ briefing and the
relevant record, the Court finds oral argument unnecessary and hereby DENIES the motion for the reasons
explained herein.
I.

BACKGROUND

Plaintiffs are delivery drivers working for Defendants Amazon.com or Amazon Logistics. (Dkt. No. 76
at 1.) Plaintiffs are parties to individual contracts
with Defendants (collectively, the “contract”), and Defendants have classified Plaintiffs as independent

79a
contractors.1 (Id.) Of the tens of thousands of putative
class members, all but approximately 165 are parties
to a contract with Defendants containing a provision
mandating individual arbitration (the “Arbitration
Provision”). (See Dkt. Nos. 49 at 4, 77 at 2, 37-1, 37-2.)
The Arbitration Provision further mandates that the
Federal Arbitration Act (“FAA”) will govern any disputes arising between the parties. (See Dkt. Nos. 37-1
at 5, 37-2 at 7.)
Directly after the contract’s Arbitration Provision,
a provision entitled “Governing Law” (the “Governing
Law Provision”) states: “These Terms are governed by
the law of the state of Washington without regard to
its conflict of laws principles. However, the preceding
sentence does not apply to [the Arbitration Provision],
which is governed by the Federal Arbitration Act and
applicable federal law.” (Dkt. No. 37-1 at 5.)
At the heart of Plaintiffs’ complaint is their allegation that Defendants have misclassified Plaintiffs
as independent contractors instead of employees. (See
Dkt. No. 83.) Simultaneous to when this lawsuit was
filed, the Ninth Circuit and the United States Supreme
Court were poised to answer questions relevant to the
arbitrability of Plaintiffs’ claims. (See Dkt. No. 77.) As
a result, the Court stayed this action, pending those
decisions. (Id.) Those questions have now been answered, and the parties stipulate to a partial lift of the
1

There are actually two relevant types of contracts at issue,
but they are substantively the same. (Compare Dkt. No. 37-1 at
4–5, with Dkt. No. 37-2 at 6–7.) Any reference in this order to the
terms of one type of contract is applicable to the other.

80a
stay so that the Court can determine the arbitrability
of Plaintiffs’ claims. (See Dkt. Nos. 100, 101.)
II.

DISCUSSION
A. Federal Arbitration Act

Arbitration clauses “shall be valid, irrevocable,
and enforceable, save upon such grounds as exist at
law or in equity for the revocation of any contract.” 9
U.S.C. § 2 (“Section 2”). The Supreme Court has held
that Section 2 should be construed broadly to “provide
for the enforcement of arbitration agreements within
the full reach of the Commerce Clause.” Perry v.
Thomas, 482 U.S. 483, 490 (1987). Because of the FAA’s
broad reach, the Court is limited to “determining (1)
whether a valid agreement to arbitrate exists, and if it
does, (2) whether the agreement encompasses the dispute at issue.” Cox v. Ocean View Hotel Corp., 533 F.3d
1114, 1119 (9th Cir. 2008) (quoting Chiron Corp. v.
Ortho Diagnostic Sys., Inc., 207 F.3d 1126, 1130 (9th
Cir. 2000)). “[A]ny doubts concerning the scope of arbitrable issues should be resolved in favor of arbitration.” Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 24–25 (1983).
Plaintiffs argue that there is no valid agreement
to arbitrate because the Arbitration Provision is unenforceable, as Plaintiffs fall within the exemption to the
FAA codified at 9 U.S.C. § 1 (“Section 1” or the “transportation worker exemption”).2 (Dkt. Nos. 46, 104,
2

In their initial briefing, Plaintiffs made two additional arguments that are without merit. (See Dkt. Nos. 46 at 15–21, 62

81a
107.) Section 1 exempts “contracts of employment of
seamen, railroad employees, or any other class of workers engaged in foreign or interstate commerce.” 9
U.S.C. § 1. The parties dispute whether Plaintiffs are
engaged in interstate commerce.3 (Dkt. Nos. 103, 104,
107, 108.)
In contrast to Section 2, Section 1 is construed narrowly. See Circuit City Stores, Inc. v. Adams, 532 U.S.
105, 118 (2001) (“The plain meaning of the words ‘engaged in commerce’ is narrower than the more openended formulations ‘affecting commerce’ and ‘involving
commerce.’ ”). As a result, many courts in the Ninth
at 22.) First, they argued that the Arbitration Provision is unenforceable because it contains a class action waiver, in violation of
the National Labor Relations Act (“NLRA”). (Dkt. No. 46 at 15–
21.) However, the Supreme Court has clarified that “[n]othing in
our cases indicates that the NLRA guarantees class and collective
action procedures, let alone for claims arising under different
statutes and despite the express (and entirely unmentioned)
teaching of the Arbitration Act.” Epic Sys. Corp. v. Lewis, 138
S. Ct. 1612, 1628 (2018). In their supplemental briefing, Plaintiffs make no mention of their NLRA argument, and the Court
concludes that they are no longer pursuing it.
Second, Plaintiffs argued that the Arbitration Provision is
unenforceable because, under the Fair Labor Standards Act, employees’ rights to bring a collective action are not waivable. (See
Dkt. No. 62 at 22.) However, the Ninth Circuit has rejected that
argument. See Horenstein v. Mortg. Mkt., Inc., 6 F. App’x 618,
619 (9th Cir. 2001).
3
Prior to the Supreme Court’s decision in New Prime Inc. v.
Oliveira, 139 S. Ct. 532 (2019), the parties disputed whether
Plaintiffs were subject to a “contract of employment.” (See Dkt.
Nos. 62 at 24–25, 68 at 14–17.) The parties now appear to agree
that New Prime clarifies that Plaintiffs are subject to a contract
of employment. (See Dkt. Nos. 103, 104.)

82a
Circuit have construed the transportation worker exemption to require a stricter association between the
employee and interstate commerce than might otherwise be required under other legislation. See, e.g.,
Magana v. DoorDash, Inc., 343 F. Supp. 3d 891, 899
(N.D. Cal. 2018); Bonner v. Mich. Logistics Incorp., 250
F. Supp. 3d 388, 397 (D. Ariz. 2017); Levin v. Caviar,
Inc., 146 F. Supp. 3d 1146, 1152–54 (N.D. Cal. 2015);
Lee v. Postmates Inc., 2018 WL 6605659, slip op. at 7
(N.D. Cal. 2018). Courts in this circuit have recognized
that, in order for a delivery driver to qualify for the
transportation worker exemption, the delivered good
must have originated, or transformed into its final
condition, in a different state than the delivery state.
See Magana, 343 F. Supp. 3d at 899; Levin, 146
F. Supp. 3d at 1152–54; Vargas v. Delivery Outsourcing,
LLC, 2016 WL 946112, slip op. at 3–5 (N.D. Cal. 2016).
In this case, Plaintiffs deliver packaged goods that are
shipped from around the country and delivered to the
consumer untransformed. The Court concludes that
Plaintiffs’ work is readily distinguishable from the
workers discussed in the above-cited case law.
For example, in Lee v. Postmates, the court found
that the plaintiffs had not established that they fell
within the transportation worker exemption because
they “do not cite any case holding that making only local deliveries, for a company that does not hold itself
out as transporting goods between states, constitutes
engaging in interstate commerce within the meaning
of the statute.” Lee, 2018 WL 6605659, slip op. at 7
(emphasis added). But here, Defendants are akin to

83a
UPS and FedEx—they are widely known as a company
able to transport goods across the country to consumers in a couple of days. To be sure, Defendants admit
that they historically contracted with UPS and FedEx
for the services that Plaintiffs now provide. (Dkt. No.
37 at 2.)
And in Levin v. Caviar, the court found that local
food delivery did not constitute interstate commerce,
despite the fact that the ingredients had travelled interstate, because the ingredients “ended their interstate journey when they arrived at the restaurant
where they were used to prepare meals.” Levin, 146
F. Supp. 3d at 1154. Again, this case is different: Defendants are in the business of delivering packages
and goods across the country that are not transformed
or modified during the shipping process. Plaintiffs deliver goods in the same condition as they were shipped,
and the goods are shipped around the country.
In Vargas v. Delivery Outsourcing, the court found
that the plaintiff did not fall within the transportation
worker exemption, despite the fact that he was in the
business of delivering delayed airline luggage to its
owners. Vargas, 2016 WL 946112, slip op. at 1, 3–5.
But in Vargas, the luggage was not a “good” to be delivered until it was delayed or lost by the airline and
then discovered when it was already intrastate. See
id. Much like a food delivery service, a luggage delivery service is not engaged in interstate commerce because it is not in the business of shipping goods across
state lines, even though it delivers goods that once

84a
travelled interstate. As mentioned above, Defendants
are in the business of shipping goods across state lines.
Several out-of-circuit cases are more relevant to
the facts at issue here because they have dealt with
goods that often travel interstate without transformation. For example, in Palcko v. Airborne Express, the
Third Circuit found that the plaintiff supervisor, who
did not deliver packages herself, fell within the transportation worker exemption because she supervised
employees who delivered packages, even though those
employees’ delivery routes were entirely intrastate.
Palcko v. Airborne Express, Inc., 372 F.3d 588, 590, 593
(3d Cir. 2004); see also Zamora v. Swift Transp. Corp.,
2008 WL 2369769, slip op. at 9 (W.D. Tex. 2008). In
Palcko, the package delivery at issue involved the interstate shipment of untransformed goods, unlike prepared food delivery.
And in Christie v. Loomis Armored US, the court
found that the plaintiff fell within the transportation
worker exemption, even though he travelled strictly intrastate, because he delivered currency, “a good that is
undisputedly in the stream of interstate commerce.”
Christie v. Loomis Armored US, Inc., 2011 WL 6152979,
slip op. at 3 (D. Colo. 2011). The Christie court reasoned that a delivery person “need not actually
transport goods across state lines to be part of a class
of employees engaged in interstate commerce.” Id.
Consider the following hypothetical: A national
freight company delivers finished goods to individuals
and businesses using a series of distribution centers

85a
located across the country. The company employs
both “long-haul” and “short-haul” drivers—the former
transporting goods from distribution center to distribution center, the latter from distribution center to
customer. A distribution center in Northern California
receives a shipment of mattresses from New York,
some of which are then transported by a long-haul
driver to a distribution center in Southern California,
others of which are delivered by a short-haul driver to
a customer in Southern Oregon. The long-haul truck
driver would not be any less subject to the transportation worker exemption than the short-haul truck
driver, whose route happens to cross state lines. If an
employer’s business is centered around the interstate
transport of goods and the employee’s job is to
transport those goods to their final destination—even
if it is the last leg of the journey—that employee falls
within the transportation worker exemption.4
4

Although they were decided before Circuit City, the postal
worker cases Plaintiffs cite are also helpful here. See, e.g.,
Bacashihua v. U.S. Postal Serv., 859 F.2d 402, 405 (6th Cir. 1988)
(finding that a postal worker who never personally crossed state
lines still engaged in interstate commerce, within the meaning of
Section 1, because postal workers generally are “responsible for
dozens, if not hundreds, of items of mail moving in interstate commerce on a daily basis”). Defendants argue that the postal worker
cases are distinguishable because postal workers are members of
a national collective bargaining agreement, which effectively
turns intrastate postal workers into workers that fall within the
transportation worker exemption. (Dkt. No. 108 at 11–12.) This
is a distinction without a difference—whether an employee
signs a national collective bargaining agreement is irrelevant to
whether they are engaged in the business of interstate transportation of goods.

86a
Finally, when deciding whether a particular employee falls within the transportation worker exemption, courts often consider whether a strike by a group
of the employees at issue would interrupt interstate
commerce. See, e.g., Levin, 146 F. Supp. 3d at 1155;
Vargas, 2016 WL 946112, slip op. at 5. The Court
finds that a strike by a large group of Plaintiffs and
those similarly-situated would interrupt interstate
commerce. As mentioned previously, Defendants are
one of the country’s largest businesses engaged in the
interstate shipment of packages and goods. A strike by
Plaintiffs would be akin to local UPS or FedEx drivers
striking—a strike by UPS or FedEx drivers, who only
personally travel intrastate, would cause a ripple effect
in interstate commerce because goods travelling interstate would still not make it to their final destination.
Therefore, Plaintiffs fall within the FAA’s transportation worker exemption.
B. Enforceability of the Contract
“Section 1 [of the FAA] does not, however, in any
way address the enforceability of employment contracts exempt from the FAA. It simply excludes these
contracts from FAA coverage entirely.” Valdes v. Swift
Transp. Co., Inc., 292 F. Supp. 2d 524, 529 (S.D.N.Y.
2003); see also Palcko, 372 F.3d at 596. Because the
FAA is inapplicable to the Arbitration Provision, the
Court must determine whether the Arbitration Provision is nevertheless enforceable, such that there is a
valid agreement to arbitrate.

87a
The Governing Law Provision states: “These Terms
are governed by the law of the state of Washington
without regard to its conflict of laws principles. However, the preceding sentence does not apply to [the
Arbitration Provision], which is governed by the Federal Arbitration Act and applicable federal law.” (Dkt.
No. 37-1 at 5.) Having found that the FAA is inapplicable to the Arbitration Provision, the parties dispute
whether it remains a valid agreement to arbitrate because the FAA’s inapplicability conflicts with the language of the Governing Law Provision. (See Dkt. Nos.
103 at 20, 104 at 17–21, 107 at 13–14, 108 at 13–16.)
“When a contract with an arbitration provision falls
beyond the reach of the FAA, courts look to state law
to decide whether arbitration should be compelled
nonetheless.” Breazeale v. Victim Servs., Inc., 198
F. Supp. 3d 1070, 1079 (N.D. Cal. 2016). But again, the
problem here is that the parties have explicitly contracted for Washington law to not apply to the Arbitration Provision. (Dkt. No. 37-1 at 5.)
Normally, “[t]o evaluate the validity of an arbitration agreement, federal courts ‘should apply ordinary
state-law principles that govern the formation of contracts.’ ” Ingle v. Circuit City Stores, Inc., 328 F.3d 1165,
1170 (9th Cir. 2003) (quoting First Options of Chi., Inc.
v. Kaplan, 514 U.S. 938, 944 (1995)).5 Although federal
and state policy favor arbitration, “courts must place
arbitration agreements on an equal footing with other
5

In this case, the parties have selected Washington law to
govern the resolution of disputes arising out of the interpretation
of the contract. (See Dkt. Nos. 37-1 at 5, 37-2 at 7.)

88a
contracts[ ] and enforce them according to their terms.”
AT&T Mobility LLC v. Concepcion, 565 U.S. 333, 339
(2011) (citations omitted); see also Gandee v. LDL Freedom Enters., Inc., 293 P.3d 1197, 1199 (Wash. 2013).
“The touchstone of contract interpretation is the
parties’ intent.” Pelly v. Panasyuk, 413 P.3d 619, 629
(Wash. Ct. App. 2018) (quoting Tanner Elec. Co-op. v.
Puget Sound Power & Light Co., 911 P.2d 1301, 1310
(Wash. 1996)). In interpreting a contract, the court
must try to ascertain the mutual intent of the parties
at the time that they executed the contract. Viking
Bank v. Firgrove Commons 3, LLC, 334 P.3d 116, 120
(Wash. Ct. App. 2014). To determine mutual intent,
Washington courts follow the objective manifestation
theory of contracts, meaning that courts look to the
reasonable meaning of the contract language instead
of the subjective intent of the parties.
Hearst
Commc’ns, Inc. v. Seattle Times Co., 115 P.3d 262, 267
(Wash. 2005). “If a contract provision’s meaning is uncertain or is subject to two or more reasonable interpretations,” the provision is ambiguous. Viking Bank,
334 P.3d at 120. Ambiguity is to be construed against
the drafter. See, e.g., Pierce Cty. v. State, 185 P.3d 594,
610 (Wash. Ct. App. 2008).
Defendants argue that Washington law is clearly
applicable in the event that the FAA does not apply.
The Court disagrees. The cases Defendants cite are
inapposite; none of the cases discuss a situation where
the FAA is inapplicable and the contract clearly indicates that state law is also inapplicable. (See Dkt.
No. 108 at 13–17) (citing Valdes, 292 F. Supp. 2d at

89a
527–30; Maldonado v. Sys. Servs. of Am., Inc., 2009 WL
10675793, slip op. at 1–2 (C.D. Cal. 2009); O’Dean v.
Tropicana Cruises Int’l, Inc., 1999 WL 335381, slip op.
at 1 (S.D.N.Y. 1999)). Here, if the parties intended
Washington law to apply if the FAA was found to be
inapplicable, they would have said so or even remained
silent on the issue. Instead, they did the opposite—in
the Governing Law Provision, the parties explicitly indicated that Washington law is not applicable to the
Arbitration Provision. Indeed, it appears that it is precisely against the parties’ intent to apply Washington
law to the Arbitration Provision. Cf. Sagner v. Sagner,
247 P.3d 444, 447 (Wash. Ct. App. 2011) (finding that
parties are required to clearly indicate that general
law is inapplicable, if that is what they intend to do).
When the parties signed the contract at issue, Plaintiffs likely had no reason to believe that Washington
law would ever apply to the Arbitration Provision.
Therefore, the Court finds that Washington law
cannot be used to enforce the Arbitration Provision.6
Because it is not clear what law to apply to the Arbitration Provision or whether the parties intended the
Arbitration Provision to remain enforceable in the
event that the FAA was found to be inapplicable, the

6

Because the Court finds that Washington law is inapplicable to the Arbitration Provision, it expresses no opinion as to
whether the Arbitration Provision would be enforceable under
Washington law.

90a
Court finds that there is not a valid agreement to arbitrate.7
III. CONCLUSION
For the foregoing reasons, Defendants’ motion to
compel arbitration (Dkt. No. 36) is DENIED.
DATED this 23rd day of April 2019.
/s/ John C. Coughenour
John C. Coughenour
UNITED STATES
DISTRICT JUDGE

7
Because the Court finds that there is not a valid agreement
to arbitrate, it does not address whether the agreement encompasses the dispute at issue. See Cox, 533 F.3d at 1119.

91a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BERNADEAN RITTMANN,
individually and on behalf of
all others similarly situated;
et al.,
Plaintiffs-Appellees,

No. 19-35381
D.C. No.
2:16-cv-01554-JCC
Western District of
Washington, Seattle

v.

ORDER

AMAZON.COM, INC.;
AMAZON LOGISTICS, INC.,

(Filed Sep. 25, 2020)

Defendants-Appellants.
Before: M. SMITH, N.R. SMITH, and BRESS, Circuit
Judges.
Judges M. Smith and N.R. Smith voted to deny the
petition for panel rehearing. Judge M. Smith voted to
deny the petition for rehearing en banc, and Judge N.R.
Smith so recommends. Judge Bress voted to grant the
petition for panel rehearing, and the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc and no judge of the court has requested a vote on it. Fed. R. App. P. 35.
The petition for panel rehearing and the petition
for rehearing en banc are DENIED.

